IN THE SUPREME COURT
OF THE UNITED STATES

CEDRIC WATKINS
Petitioner,
v.

SHAWN PHILLIPS

)
)
)
)
)
)
)

No. 19-6026

j

Respondent,

)

APPENDIX FOR
PETITION OF WRIT OF CERTIORARI

CEDRIC WATKINS
BLEDSOE COUNTY CORRECTIONAL COMPLEX
1045 HORSEHEAD ROAD
PIKEVILLE, TN 37367

y

,,s>

Q

Table of Contents

Sixth Court

A

Federal District Court

B

T.C.C.A. ( Post-conviction)

C

T.C.C.A. ( Direct Appeal)

D

'* di ■"

P'

APPENDIX A

/

° I

"■4

...»

No. 19-6026
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CEDRIC WATKINS,
Petitioner-Appellant,

v.
KENNETH D. HUTCHISON, WARDEN; STATE OF
TENNESSEE,
Respondents-Appellees.

)
)
)
)
)
)
)
)
)
)
)

FILED
Apr 03, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: BATCHELDER, McKEAGUE, and READLER, Circuit Judges.
Cedric Watkins petitions for rehearing en banc of this court’s order entered on January 3,
2020, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

»' >

No. 19-6026

UNITIED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
CEDRIC WATKINS
Petitioner - Appellant
v.
KENNETH D. HUTCHISON, Warden;
STATE OF TENNESSEE
Respondent - Appellees.

)
)
)
)
)
)

Jan 03, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)

Cedric Watkins, a pro se Tennessee prisoner, appeals the judgment of the district court denying
his 28 U.S.C. § 2254 petition for a writ of habeas corpus. Watkins has filed an application for a
certificate of appealability (“COA”). See Fed. R. App. P. 22(b)(1).
After his first trial resulted in a hung jury, Watkins was retired and convicted of the first degree
murder of Thomas Turner. The prosecution's theory at trial was that Watkins killed Turner on the belief
that Turner - who had bought drugs from Watkins - was a “snitch” who was responsible for the arrests
of two of Watkins's associates. The trial court imposed a term of life imprisonment. The Tennessee
Court of Criminal Appeals affirmed Watkins's conviction. State v. Watkins, No. M2013-01268-CCAR3-CD, 2014 WL 2547710 (Tenn. Crim. App. June 4, 2014), perm. app. denied (Tenn. Aug. 18, 2016).
Watkins then filed a state petition for post-conviction relief that alleged the ineffective
assistance of counsel. The trial court denied the petition. The Court of Criminal Appeals affirmed.
Watkins v. State, No. M2016-00681-CCA-R3-PC, 2017 WL 1048130 (Tenn. Crim. App. Nov. 8, 2016),
perm. App. denied (Tenn. May 18, 2017).

>

No. 19-6026
-2-

Watkins's habeas petition, timely filed in September 2017, raised three claims: (1) the evidence
was insufficient to sustain his conviction; (2) he was denied due process when the trial court limited the
testimony of defense witness Deborah Cox; and (3) counsel was ineffective for ailing to investigate and
prepare the case adequately, call Clifford Parrish to testify, properly cross-examine Cox, object to a
detective's allegedly hearsay testimony, and call Lashona Wooten to testify. The district court reviewed
the pleadings and determined that habeas relief was not warranted, The district court therefore denied
Watkins's motion and declined to issue a COA. Watkins now seeks a COA from this court on each issue
raised in his petition.
To obtain a COA, a petitioner must make “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). He may do so by demonstrating that “reasonable jurists would find the
district court's assessment of the constitutional claims debatable or wrong.” Miller-El v. Cockrell, 537
U.S. 322, 338 (2003) (citing Slack v. McDaniel, 529 U.S. 473, 484 (2000)). “[A] COA does not require
a showing that the appeal will succeed,” id. at 337; it is sufficient for a petitioner to demonstrate that
“the issues presented are adequate to deserve encouragement to proceed further,” id. at 327 (citing
Slack, 529 U.S. at 484).
Watkins first claimed that the evidence was insufficient to sustain his conviction, In his COA
application, Watkins argues that no physical evidence linked him to Turner or the scene of the crime
and that “each of the witnesses who did link [him] to the victim or the scene of the crime either had
significant reason to lie, and/or was admittedly living in the haze of an existence clouded by drug abuse
and a criminal lifestyle.” Watkins also asserts that Cox even testified that Stephanie Littlejohn - one of
the state's witnesses - had admitted to killing Turner.
When reviewing insufficient-evidence claims, a court must first determine “whether, after
viewing the evidence in the light most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt. Jackson v. Virginia, 443, U.S.
307, 319 (1979). On habeas review even if the federal court concluded that a rational trier of fact could
not have found a petitioner guilty beyond a reasonable doubt, the court must defer to a state appellate
court's sufficiency determination if it is not unreasonable. Brown v. Koneth, 567, F.3d 191, 205 (6th Cir.
oAom

:>

No. 19-6026
-3 -

Reasonable jurists would not debate the district court's denial of Watkins's insufficient-evidence
claim. Watkins was convicted of the “premeditated and intentional killing” of Turner. See Tenn, Code
Ann. § 39-13-202(a). “The presence of premeditation is a question of fact for the jury, and the jury may
infer premeditation from the circumstances surrounding the killing.” Watkins, 2014 WL 2547710, at *6
(citing State v. Young, 196 S.W.3d 85, 108 (Tenn. 2006): State v. Suttles, 30 S.W.3d 252, 261 (Tenn.
2000); State v. Pike, 978 S.W.2d 904, 914 (Tenn. 1998)). Here, only Watkins identity as the killer is at
issue.
As the state court recounted, witnesses testified that Watkins believed Turner was a “snitch,”
who gave information to the police that caused the arrests of Watkins's associates. Id. William Carter
testified that he drove Watkins to Turner's hotel room, that Watkins went inside, and that, when he
returned to the car, he stated “[t]wo shots to the head; he ain't talking no more.” Id. Carter also stated
that Watkins threw the shirt that he had been wearing out the car window after they left. Id. at *3.
Littlejohn's testimony corroborated Carter's testimony that Watkins went to Turner's room. Littlejohn
testified that she knew Watkins was going to Turner's room and asked him to bring back a laptop that
Turner had been working on for her; when Watkins and Carter returned, Watkins had the laptop. Id. at
6. Littlejohn also stated that Watkins told her he shot Turner in the head three times, Id., which was
consistent with the medical examiner's testimony, Id. at4. Additionally, Carter, Briana Stanton, and
Littlejohn testified consistently that Watkins threatened Carter after Carter told his girlfriend that he
had taken Watkins to Turner's room. Id. at *7.
Although Watkins asserts that there was no physical evidence tying him to the crime,
“[circumstantial evidence alone is sufficient to sustain a conviction and such evidence need not
remove every reasonable hypothesis except that of guilt.” United States v. Lowe, 795 F.3d 519, 522-23
(6lh Cir. 2015) (quoting United States v. Algee, 599 F.3d 506, 512 (6th Cir. 2010)). Regarding Watkins's
argument that the witnesses were not believable because they were drug users and criminals, a witness's
credibility is a determination that is exclusively the province of the trier of fact. United States v. Bond,
22 F.3d 662, 667 (6lh Cir. 1994).In general, attacks on witness credibility are “simply challenges to the
quality of the government's evidence and not to the sufficiency of the evidence.” Martin v. Mitchell,
280 F.3d 594, 618 (6"' Cir. 2002) (quoting United States v. Adamo, 742 F.2d 927, 935 (6"' Cir. 1984)).
As noted, several witnesses testified that Watkins stated that he had killed Turner or that Watkins made

No. 19-6026
-4-

statements that they believed referred to his murder of Turner. This evidence, if believed by the jury,
sufficiently established Watkins's identity as the killer. Watkins's insufficient-evidence claim does not
deserve encouragement to proceed further.
Watkins next claimed that he was denied due process when the trial court limited the testimony
of defense witness Cox. The respondent argued that this claim was procedurally defaulted because
Watkins did not argue that he was denied his constitutional right to due process on direct appeal. The
district court agreed and concluded that Watkins did not establish cause and prejudice to excuse his
default.
Where the district court denies a petition on procedural grounds without evaluating the merits of
the underlying constitutional claims, we will grant a COA only if two requirements are satisfied: first,
we must determine that reasonable jurists would find the district court's procedural assessment
debatable or wrong; and second, we must determine that reasonable jurists would find it debatable or
obvious that the petitioner states a valid underlying constitutional claim on the merits. See Slack, 529
U.S. at 484-85.
A federal habeas court may not grant an application for a writ of habeas corpus on behalf of a
person in custody pursuant to a state court judgment unless it appears that “the applicant has exhausted
the remedies available in the courts of the State.” 28 U.S.C. § 2254(b)(1)(A). A habeas petitioner
satisfies the exhaustion requirement when the “highest court in the state in which the petitioner was
convicted has been given a full and fair opportunity to rule on the ... claims.” Rust v. Zenl, 17 F.3d 155,
160 (6th Cir. 1994) (quoting Manning v. Alexander, 912 F.2d 878, 881 (6th Cir. 1990)). A ful and fair
presentation of the claim requires the petitioner to “present his claim to the state as a federal
constitutional issue

not merely as an issue arising under state law.” Koontz v. Glossa, 731 F.2d 365,

368 (6th Cir. 1984). Moreover, a general allegation, such as that the error of state law resulted in a
violation of due process, does not suffice. See Slaughter v. Parker; 450 F.3d 224, 236 (6th Cir. 2006)
(explaining that a petitioner must e more specific than generally alleging constitutional violations). If a
petitioner fails to exhaust his state remedies and none remain, his claims are procedurally defaulted.
See O'Sullivan v. Boerckel, 526 U.S. 838, 848 (1999). If a petitioner's claims are procedurally
defaulted, they may not be reviewed by a habeas court unless he can demonstrate “cause” and
“prejudice.” McMeans v. Brigano, 228 F.3d 674, 680 (6th Cir. 2000).

No. 19-6026
-5-

Reasonable jurists would not debate the district court's conclusion that Watkins's due process
claim was procedurally defaulted. Although Watkins raised this claim on direct appeal, he did not
specifically argue that the trial court's ruling violated his constitutional rights under the Fifth and
Fourteenth Amendments. Rather, Watkins's brief cited Tennessee Rules of Evidence and relied on
Tennessee law. The state appellate court also denied the claim on the basis of the state rules of
evidence. Watkins, 2014 WL 2547710, at *7. Accordingly, Watkins did not fairly present his
constitutional claim to the state court and is now precluded from doing so because the statute of
limitations has expired, and he has already filed a post-conviction petition for relief. See Tenn. Code
Ann. § 40-30-102(a), (c).
Nor did Watkins establish cause and prejudice to excuse his default. The “cause” standard
requires the petitioner to show that “some objective factor external to the defense” impeded efforts to
raise a claim in the state courts. McCleskey v. Zant, 499 U.S. 467, 493 (1991) (quoting Murray v.
Carrier, 447 U.S. 478, 488 (1986)). A petitioner may also overcome default by demonstrating that the.
failure to consider his claims will result in a fundamental miscarriage of justice in that it would result in
the conviction of a petitioner who is actually innocent. Murray, 447 U.S. At 496.
In his reply, Watkins argued that appellate counsel's ineffective assistance constituted cause for
his failure to present fairly the claim before the state courts. However, Watkins did not raise a claim of
ineffective assistance on this ground in his post-conviction petition in state court. His ineffectiveassistance-of-appellate-counsel claim is therefore itself procedurally defaulted. See O'Sullivan, 526
U.S, at 845. When “an ineffective-assistance-of-counsel claim asserted as cause for the procedural
default of another claim [is] itself ... procedurally defaulted[,] ... that procedural default may ... itself
be excused if the prisoner can satisfy the cause-and-prejudice standard with respect to that claim.”
Edwards v. Carpenter, 529 U.S. 446, 453 (2000). Watkins has failed to argue such cause and prejudice.
He cannot therefore rely upon the alleged ineffective assistance of his appellate attorney as cause to
excuse the default of his due process claim, The claim does not deserve encouragement to proceed
further.
Finally, Watkins argued that trial counsel was ineffective. To establish the ineffective assistance
of counsel, a habeas petitioner must show that his attorney's performance was deficient and that he was
prejudiced by counsel's alleged errors. See Strickland v. Washington, 466 U.S. 668, 687 (1984). To

No. 19-6026
-6establish a right to habeas relief due to ineffective counsel, the defendant must establish that the state
court's application of the Strickland standard was unreasonable. See § 2254(d)(1). “The standards
created by Strickland and § 2254(d) are both 'highly deferential,' and when the two apply in tandem,
review is 'doubly' so.” Harrington v. Richter, 562 U.S. 86, 105 (2011) (citations omitted) (citing
Strickland, 466 U.S. At 689; Knowles v Mirzayance, 556 U.S. Ill, 123 (2009)).
Watkins claimed that counsel did not adequately investigate and prepare the case, or interview
potential witness Wooten, who had testified at Watkins's first trial. Watkins claimed that counsel met
with him only twice before trial, for less that thirty minutes each time, and did not prepare him to
testify in his own defense. Watkins claimed that he felt unprepared to testify and therefore waived his
right to do so. Nevertheless, he claims that he would have told the jury he did not kill Turner and that
the result of the trial would have been different. Following a hearing where Watkins and trial counsel
both testified, the state court rejected his claim.
Reasonable jurists would not debate the district court's conclusion that the state court's
adjudication was not contrary to clearly established federal law. See 28 U.S.C. § 2254(d)(1). At the
post-conviction hearing, trial counsel testified that he met with Watkins on three occasions, for about an
hour each time; he reviewed the transcript from the first trial line-by-line with Watkins and they
communicated well; he went to the crime scene and spent about eight hours reviewing exhibits and
photographs; he filed three motions in limine to exclude various pieces of evidence; he got help of a
nurse to interpret medical records; he worked with two investigators and interviewed all of the potential
witnesses, including Wooten; and he advised Watkins that it would benefit him to testify but only if he
could do do truthfully and not get “crossed up” by cross-examination. Counsel also had almost forty
years of experience and had participated in more than thirty criminal trials, lde testified that, although
he was hired only three weeks prior to Watkins's second trial, he focused solely on Watkins's case from
the time he was hired to the time of trial. The state trial court found credible counsel's testimony that:
he had adequately prepared for trial with Watkins's help; he had interviewed Wooten but decided not to
call her as a witness due to her demeanor; and he had several conversations with Watkins about
testifying in his own defense but that he left the decision up to Watkins, who decided not to testify and
executed a formal waiver of that right in court. The state court's credibility determination is presumed
to be correct, see Skaggs v. Parker, 235 F.3d 261, 266 (6lh Cir,. 2000), and Watkins has not shown by

_'V

No. 19-6026
-7clear and convincing evidence that it was incorrect, see 28 U.S.C. § 2254(e)(1).
Watkins next asserted that counsel was ineffective for failing to call Parrish to testify. Counsel
testified that Watkins never mentioned Parrish, the state court credited counsel's testimony, and Watkins
has niot rebutted the state court's credibility determination. Moreover, even is counsel should have
called Parrish to testify, his testimony would have been cumulative to Cox's testimony that Littlejohn
had stated that she killed Turner, which would not have changed the result of the proceeding. See
Broom v. Mitchell, 441 F.3d 392, 410 (6th Cir. 2006). This claim does not deserve encouragement to
proceed further.
Next, Watkins argued that counsel did not properly cross-examine Cox. Although Cox was a
defense witness, Watkins asserts that counsel should have pointed out the differences between Cox's
testimony at Watkins's first and second trials, particularly with respect to the fact that Cox testified at ^
. the second trial that the victim was shot in the back of the head when she did no mention the victim's
manner of death at the first trial.
Reasonable jurists would not debate the district court's denial of his claim. “Decisions about
'whether to engage in cross-examination, and if so to what extent and in what manner, are ... strategic
in nature' and generally will not support an ineffective assistance claim.” Walton v. Parish, No. 182327, 2019 WL 6124896, at *2 (6th Cir. Sept. 26, 2019) (ellipis in original) (quoting Dunham v. Travis,
313 F.3d 724, 732 (2d Cir.2002)). Further, the state court ruled that the trial court's limitation on Cox's
testimony was not erroneous under Tennessee Rules of Evidence, a finding to which the federal courts
must defer. See Sanford v. Yukins, 288 F.3d 855, 861-63 (6th Cir. 2002). Finally, Watkins cannot
establish prejudice. As stated above, Cox testified for the defense that Littlejohn had told her that she
killed Turner. If counsel had effectively demonstrated that Cox had given inconsistent testimony in the
first and second trials, it would have affected her credibility in the eyes of the jury.
Watkins also claimed that counsel was ineffective for failing to object to the allegedly hearsay
testimony of detective Corey Wall. The state court denied this claim on the basis that there was no
“evidentiary error”; rather, Wall gave “general” testimony about the action he took based on what the
individuals said, and he did not testify as to what each witness told him. Like the state court's ruling on
the imitation of Cox's testimony, the state court's finding that detective Wll did not testify as to hearsay
statements is entitled to deference by this court. See id. Because the detective did not provide hearsay

No. 19-6026
-9would have made a difference in his second trial, based on the fact that she testified at his first trial
that ended in a hung jury.
Reasonable jurists would not debate the district court’s denial of this claim. Trial counsel
was aware that Wooten had testified in Watkins’s first trial and did not believe that her testimony
was very helpful. Moreover, counsel spoke to Wooten on the phone and in person and determined,
based on his conversations with her, that she would not make a good witness and could be a
liability to Watkins. “[Strategic choices made after thorough investigation of law and facts
relevant to plausible options are virtually unchallengeable . . . .” Strickland, 466 U.S. at 690.
Nor can Watkins make a substantial showing that he was prejudiced by counsel’s failure
to call Wooten as a witness. Watkins believes that Wooten’s testimony that she was unable to see
. who the passenger was would have “raised a doubt as to [his] presence at the location where the
victim was killed.” However, Wooten’s statement that Carter was at the victim’s residence with a
passenger in his vehicle on the day the victim was killed only corroborates Carter’s testimony to
the same facts. More importantly, Carter testified that Watkins was the passenger, and Wooten’s
inability to see who the passenger was does not"establish that the passenger was not Watkins. Trial
counsel “has no obligation to call or even interview a witness whose testimony would not have
exculpated the defendant.” Millender v. Adams, 376 F.3d 520, 527 (6th Cir. 2004) (quoting
Millender v. Adams, 187 F. Supp. 2d 852, 877 (E.D. Mich. 2002)).

Because there is not a

reasonable probability that Wooten’s testimony would have changed the result of the proceeding,
this claim does not deserve encouragement to proceed further.
/

For the foregoing reasons, Watkins’s application for a COA is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

\

s>

APPENDIX B

*

WFESTLAW
Watkins v. Settles
United States District Court, M D. Tennessee, Nashville Division

August 27. 2019

Slip Copy

2019 WL 4038338

;Aaiiro>

iy pages.)

2019 WL 4038338
Only the Westlaw citation is currently available.
United States District Court, M.D. Tennessee. Nashville Division.

Cedric WATKINS, Petitioner,
v.

Darren SETTLES, et al., Respondents.
No. 3:i7-cv-oi32t
Filed 08/27/2019
Attorneys and Law Firms
Cedric Watkins, Pikeville, TN. pro se.
Meredith Wood Bowen. Tennessee Attorney General's Office, Nashville, TN, for
Respondents.
MEMORANDUM OPINION

)

WAVERLY D. CRENSHAW, JR., CHIEF UNITED STATES DISTRICT JUDGE
*1 Cedric Watkins, an inmate of the Bledsoe County Correctional Complex in Pikeville,
Tennessee, filed a pro se petition for 3 writ of habeas corpus under 28 U.S.C. § 2254
challenging his conviction in the Davidson County Criminal Court of first-degree
premeditated murder. Petitioner is serving a term of imprisonment for life in the Tennessee
Department of Correction for this offense, (Doc. No. 1).
Presently pending before the Court is the Warden's answer to the habeas petition in which
he asks the Court to dismiss the petition. (Doc. No. 11).
The petition is ripe for review, and this Court has jurisdiction pursuant to 28 U.S.C. §
2241(d). Having fully considered the record, the Court finds that an evidentiary hearing is not
needed, and Petitioner is not entitled to relief. The petition therefore will be denied and this
action will be dismissed.
I. Procedural History
Petitioners first trial ended in a hung jury. (Doc. No. 9, Attach. 1 at PagelD# 51). In 2013,
after a second jury trial, Petitioner was convicted of first degree murder, and the trial court
imposed a life sentence. (Doc. No. 1 at 1).
On direct appeal, the Tennessee Court of Criminal Appeals affirmed Petitioner's judgment on
January 20, 2015. State v. Watkins. No. M2013-0212-CCA-R3-CD, 2014 WL 2547710
(Term. Crim. App. June 4. 2014), nerm. aop. denied (Tenn. Aug. 18, 2016). However, due to
a discrepancy regarding Petitioner s sentence, the court remanded to the trial court for it to
consider whether the judgment required correction of a clerical error, jd. al *8. The
Tennessee Supreme Court denied Petitioner's application to appeal on Aug. 18, 2016. jd.
On January 20, 2015. Petitioner filed a timely pro se petition for state post-conviction relief.
(Doc. No. 9, Attach. 11 at PagelD# 783-806). On June 22, 2015, Petitioner filed an amended
petition through counsel. (Doc. No. 9, Attach. 11 at PagelD# 816-826). Following an
evidentiary hearing, the post-conviction court denied relief on April 4, 2016. (Doc. No. 9,
Attach. 11 at PagelD# 830-859). The post-conviction court simultaneously granted Petitioner
permission to file a delayed Rule 11 application to the Tennessee Supreme Court due to
appellate counsel's failure to file a Rule 11 application for permission to appeal. Watkins v.
State. No M2016-00681-CCA-R3-PC, 2017 WL 1048130. at *4 (Tenn, Crim. App. Mar. 20,
2017), nerm. ano denied (Tenn. May 18. 2017). Petitioner's delayed Rule 11 application was
denied on August 18, 2016. (Doc. Nos. 9. 10).
Petitioner appealed the denial of his post-conviction petition, and the Tennessee Court of
Criminal Appeals affirmed on March 20. 2017. Watkins v. State. No. M2016-00681-CCA-R3PC, 2017 WL 1048130 (Tenn. Crim. App. Mar. 20, 2017), perm, aoo denied (Tenn. lyiay 18,
2017). The Tennessee Supreme Court denied Petitioner's application for discretionary
review on May 18, 2017. jd.

1

.»

On September 25: 2017,1 Petitioner filed the instant pro se petition for writ of habeas
corpus, (Doc. No. 1 at 15). On October 12, 2017, the Court ordered Respondent to respond
to the petition. (Doc. No. 5). Respondent filed its answer on December 31, 2017. (Doc. No.
11).
‘2 In his petition, Petitioner asserts four claims for relief: his conviction is not supported by
sufficient evidence because there was no physical evidence connecting him to the crime
scene and because many of the witnesses were not credible; he was denied due process of
law when the trial court erred by limiting the testimony of a defense witness; he was denied
ineffective assistance of counsel when trial counsel failed to adequately investigate the case,
specifically in failing to interview Lashona Wooten, and failed to consult with Petitioner prior
to trial; and he was denied effective assistance of counsel when trial counsel failed to (1) call
Clifford Parrish to testify, (2) properly cross-examine Deborah Cox, (3) object to Detective
Corey Wall's hearsay statements, and (4) call Lashona Wooten to testify. (Doc. No. 1 at
PagelD# 5-11).
II. Summary of the Evidence
A. Trial Proceedings
The Tennessee Court of Criminal Appeals summarized the proof adduced at Petitioner's
March 18-20, 2013 second jury trial as follows:
The victim's brother, Davis Turner, testified that the victim was fifty-two years old when he
died. The victim had been in the Air Force and had worked for various defense industry
firms. Mr. Turner testified that the victim had always had an interest in computers. Mr.
Turner first learned in 1995 that the victim had a drug habit. He said that the victim had
been living at InTown Suites and had owned a white Ford Probe at the time of his death.
William Ogden testified that he was working at InTown Suites on July 28, 2009. When he
was cleaning the parking lot. he smelled a distinct odor and notified his manager that there
was probably a dead body on the premises. He could not determine from which room the
smell was coming, so he waited for his manager to arrive. Together, they searched several
rooms until they found the victim's body in room 135. Mr. Ogden knew the victim as “Bill."
Mr. Ogden testified that he and the manager looked into the room but did not enter it. The
manager, Kevin Moore, also testified and corroborated Mr. Ogden's testimony.
Lynette Mace, a crime scene technician with the Metro Nashville Police Department,
testified that she processed the victim's room along with Sergeant John Nicholson. She
described the room as an efficiency apartment. The victim was lying a few feet from the
door. A chair was turned over, but there were no other signs of disarray. She saw two
computers in the room. Ms. Mace found three spent nine millimeter shell casings and two
projectile fragments. There was a “strike mark’ on one wall, and she found a projectile
lodged inside the wall at that location. Ms. Mace processed the room for fingerprints and
"DNA touch evidence." She also used vacuum filters to collect any trace evidence.
Brianna Stanton testified that in 2009. she lived in various hotels -with different people and
abused crack cocaine. She said that“[m]ost of the time,’ she lived with appellant, whom
she knew as "Frank White.” Ms. Stanton said that she also lived with Stephanie Littlejohn
and “Hannah.'' Other acquaintances included William Carter (a/k/a “Will C."), Bobby
Gurley (a/k/a “B.O.”), and Chaz Ellis (a/k/a “Cuz"). Mr. Carter was a barber and had a car.
She was also acquainted with the victim, whom she knew as “Bill Gates.” She recalled an
occasion when the victim bought drugs and wanted to try the drugs before he left, which
was unusual behavior for him. She and appellant later discussed the possibility of the
victim's being a “snitch." Ms. Stanton testified that several days before she learned of the
victim's death, Mr. Carter had driven appellant somewhere. When they returned,'
appellant, supposing that Ms. Stanton knew what had happened, said that they “were all
supposed to take it to the grave." She said that she did not ask any questions. Ms.
Stanton learned about the victim's murder on the news. When his murder was reported,
appellant said, “ '[WJell, there it is.'" Sometime later, she heard that Mr. Carter had been
“running around talking about" what appellant had done. Appellant called Mr. Carter to
come to their hotel room, and he "asked [Mr. Carter] why he was running his mouth and
smacked him for doing it.” Ms. Stanton agreed that she had testified in a prior proceeding
that appeiiant said something “along the lines of [ ] they had tu do what they had to do to
somebody who was snitching" and that “the four of us in the room would take it to the
grave."

i

*3 Ms. Stanton recalled that the first time she talked to detectives about the victim's
murder, she denied any knowledge of what occurred. Detectives talked to her again in
December 2010. while she was in jail, and she told them what she knew. Ms. Stanton and
appellant spoke by telephone at least twice while she was in jail, on November 14. 2010.
and December 19, 2010. The State introduced recordings of those telephone
conversations into evidence. In the November conversation, Ms. Stanton mentioned that
she "hopejdj that [ j everybody does what they said they were going to do," and appellant
asked her whether she had heard from anyone “with a badge.” Ms. Stanton testified that
they were both referring to the victim's murder. In the December 2010 conversation,
appellant told Ms. Stanton to “[sjtick to the script’ and said that they would "fight this s* * *
to the end.' Ms. Stanton "guessed” that he was referring to the victim's murder. She
agreed that she had previously testified that "sticking to the script" meant that no one
would say anything.
Stephanie Littlejohn testified that in July 2009, she lived in hotel rooms and was engaging
in prostitution and drug sales. She lived with appellant, whom she knew as Frank White.
Ms. Stanton and "Hannah" also lived with her and appellant. Ms. Littlejohn testified that
she was acquainted with Chaz Ellis, Bobby Gurley, William Carter, and the victim. She
said that the victim was called “Bill Gates" because “[h]e was smartj. and] he fixed
computers." Ms. Littlejohn recalled that the victim came to her hotel room on July 23,
2009. to take her to buy marijuana When they returned to the hotel room, she gave the
victim her laptop so that he could work on it. After the victim left, the group present at the
hotel discussed whether the victim had “snitch[ed]” on Mr. Gurley and Mr. Ellis because
they had been arrested. Ms. Littlejohn testified that appellant and Mr. Carter left the hotel
to visit the victim. She said that she asked them to pick up her laptop while they were
there. She further said that she “had a feeling" about the purpose of their visit but that “[i]t
was kind of one of those things that [was] left unsaid.”
Ms. Littlejohn testified that appellant and Mr. Carter returned thirty to forty-five minutes
later. She recalled that appellant “was just in tears, and he said the Lord's prayer,"
Appellant had her laptop but would not let her have it. Ms. Littlejohn said that she learned
about the victim's murder approximately a week later when it was reported on the news.
She did not remember appellant's saying anything about the murder immediately after It
was on the news, but she testified that at some point appellant told her that he had shot
the victim three times. Ms. Littlejohn also testified that appellant confronted Mr. Carter
about Mr. Carter's telling his girlfriend what had happened the day of the victim's murder.
Appellant ”smack[ed]’' Mr. Carter and took him into the bathroom. Ms. Littlejohn
remembered Mr. Carter's asking appellant not to kill him. Ms. Littlejohn testified that she
did not talk to the police about the victim's murder until September 2010. At first, she
denied any knowledge but eventually told the police the information about which she
testified at trial.
On cross-examination, Ms. Littlejohn clarified that appellant told her on the same day of
the murder that he had shot the victim, not at a later point in time. She also stated that she
did not remember telling Deborah Cox about a statement made by appellant with regard to
the victim's murder.
William Carter testified that he was acquainted with appellant, Ms. Littlejohn, and Ms.
Stanton. He also knew Mr. Gurley and Mr. Ellis, but he did not know the victim. He said
that he had heard “the women" talk about the victim and that he knew the victim was a
drug user. Mr. Carter testified that Mr. Gurley and Mr. Ellis were both arrested in 2009 and
that he subsequently heard a rumor that the victim was “snitching.” He did not know
whether the victim's alleged "snitching" was related to the arrests of Mr. Gurley and Mr.
Ellis. Mr. Carter testified that on July 23, 2009, appellant called him to cut his hair. He went
to the hotel where appellant was staying. After cutting his hair, appellant asked Mr. Carter
to take him somewhere to pick up something. Mr. Carter did not consider that an unusual
request. Mr. Carter drove appellant to InTown Suites at appellant's direction. When they
pulled into the parking lot, appellant pointed out the car for which he had been looking. Mr.
Carter identified a picture of that car, which had been previously identified as belonging to
the victim. Mr. Carter said that he saw a woman he knew standing on the second or third
level of the hotel. He spoke to the woman, and appellant told him to leave. He drove to the
end of the building, where appellant got out of the car. Mr. Carter said that he turned his
car around and then saw appellant running toward him, carrying a laptop computer.
Appellant got into Mr. Carter's car, and they drove away. Mr. Carter testified that while in
the car, appellant said, “ [T]wo shots to the head[;] he ain't talking no more." ’ Mr. Carter
said he did not know what appellant meant and that he had heard similar phrases “in

ll

some rap lyrics.' Appellant also took off his shirt and threw it out of the window of the car.
Mr. Carter did not see appellant with a gun that day.
M Mr. Carter testified that when the news reported the victim’s death, they showed a
photograph of the InTown Suites. Mr. Carter told his girlfriend that he had driven appellant
to that location, but he did not associate that incident with the victim's murder. He testified
that approximately one month later, appellant called him to cut his hair. Mr. Carter went to
appellant's hotel room and cut his hair. Subsequently, appellant punched him in the jaw
and said," [B] * * * *, you been [sic] running your mouth about taking me to the room.’"
Appellant also pulled him into the bathroom and told him that "if [he] ever said anything!.]
someone would kill [Mr. Carter] and [his] family.’ Mr. Carter testified that the following day,
he was arrested for failing to pay his child support obligations. He was incarcerated for five
months. He was arrested on September 20, 2010, for a traffic violation and served five
days in jail. While he was in jail for the traffic violation, Detective Wall came to speak with
him about the victim's murder. He did not admit to knowing anything at that point. In March
2011, Mr. Carter saw on the news that he was wanted for first degree murder, so he
turned himself in to the police. Detective Wall interviewed him again, and he gave a full
statement.
Dr. Bridget Eutenier, an associate medical examiner in Davidson County, testified that the
victim was shot in the front of his head three times: on his left eyebrow, in front of his left
ear, and below his right eye. Two of the bullets exited, but one was recovered "from the
posterior scalp.'' The victim's body was in a state of decomposition, making it difficult to
determine the trajectory of the bullets. Dr. Eutenier testified that “[a]ll three wounds would
have been fatal." Dr. Eutenier estimated that the victim had died "a few days" prior to his
discovery.
Metro Nashville Police Detective Corey Wall testified that he was the lead investigator in
this case. He said that the victim's brother, Davis Turner, provided him with the victim's
cellular telephone number. Subsequently. Detective Wall obtained the victim's telephone
records. The last call that the victim made was on July 23, 2009, at 5:12 p.m. Detective
Wall had the Identification Department compare fingerprints from people with whom the
victim had communicated with the fingerprints lifted from his hotel room. There were no
matches. In addition, no DNA was found in the victim's hotel room other than his own. The
computers from the hotel room were also analyzed but contained no useful information.
Detective Wall testified that he also interviewed persons of interest identified through the
victim's telephone records. In particular, he interviewed Stevie Downs, who suggested that
he speak with Chaz Ellis Detective Wall first spoke with Mr. Ellis in August 2009, but he
denied any knowledge of the victim's murder. In July 2010, Mr. Ellis's attorney contacted
Detective Wall and told him that Mr. Ellis wished to speak with him. When they met, Mr.
Ellis suggested that Detective Wall talk to Stephanie Littlejohn and Brianna Stanton.
Detective Wall and his partner, Detective Derry Baltimore, spoke with Ms. Littlejohn while
she was incarcerated in September 2010. She was reluctant to divulge any information at
first, but after they “leaned on" her, she told them about how she knew the victim and that
the victim had been working on her laptop. She also told them about appellant's returning
to their hotel room after having gone out with Mr. Carter. Ms. Littlejohn said that appellant
gave her back her laptop, said a prayer for the victim, and told her that he had “shot the
victim three times in the head." From Ms. Littlejohn's information, Detective Wall attempted
to interview William Carter on September 30. 2010, but he refused to speak with the
police. Detective Wall and Detective Baltimore interviewed Ms. Stanton in December
2010. She gave a statement that was consistent with Ms. Littlejohn's statement.
Subsequently, Mr. Carter and appellant were both charged with the victim's murder. After
Mr. Carter was taken into custody, he gave a statement that was consistent with Ms.
Stanton's and Ms. Littlejohn's statements. Thereafter, appellant was arrested.
Tennessee Bureau of Investigation Agent Alex Brodhag testified as an expert in forensic
firearms examination. He said that the police submitted the following evidence to him for
analysis: a fired bullet core; three fired nine millimeter Luger cartridge cases; a fired
jacketed bullet; a fired bullet core fragment; and a Fired hollow point bullet jacket. Agent
Brodhag determined that the three nine millimeter cartridges were fired from the same
weapon. He further determined that the fired bullet core, the fired jacketed bullet, and the
fired hollow point bullet jacket were consistent with nine millimeter bullets. The bullet core
fragment was not useful for comparison purposes. The markings on the jacketed bullet
and hollow point bullet jacket had the “same class characteristics," but there were not
enough markings to conclude that they were fired from the same weapon. In addition,

>

Agent Brodhag could not determine whether the fired bullets were originally paired with
the three cartridge cases and. therefore, could not determine how many weapons were
used. Following Agent Brodhag's testimony, the State rested its case.
*5 On behalf of appellant. Deborah Cox testified that Stephanie Littlejohn and Brianna
Stanton lived with her for a time after July 2009. Ms. Cox said that Ms. Littlejohn told her,"
I killed Bill Gatesj;] I shot him in the back of the head(.][T]he gun will never be found[;] it's
in pieces all over this town."'
After the close of proof and deliberations, the jury found appellant guilty as charged.
Appellant's motion for new trial was unsuccessful.
Watkins. 2014 WL 2547710. at ”1-5.
B. Post-Conviction Proceedings
The Tennessee Court of Criminal Appeals summarized the proof adduced at Petitioner's
post-conviction evidentiary hearing as follows:
Clifford Parrish, a long-time boyfriend of the petitioner's aunt, testified that Stephanie
Littlejohn told him that she had committed the murder. He said he did not impart that
information to the petitioner's defense team because he thought Ms. Littlejohn would take
the initiative and tell them herself. On cross-examination, he testified he later told the
petitioner's aunt about Ms Littlejohn's confession. He was unsure, however, of when he
divulged the information, testifying that it could have possibly been during the first or the
second trial.
Lashona Smith, previously known by the married name of Lashona Wooten, testified that
she gave testimony at the petitioner's first trial about having seen William Carter driving
away from the hotel with a passenger in his vehicle on the day the victim was killed, but
she was unable to see who the passenger was. She stated that she was subpoenaed as a
witness at the petitioner's second trial, but, although the petitioner's trial counsel spoke to
her outside the courtroom, she was never called to testify.
Deborah Cox testified that she testified at both of the petitioner's trials. She said that both
trial counsel and his investigator interviewed her and that she was asked at the second
trial about Ms. Littlejohn's statement that she had killed the victim and disposed of the
gun.
The petitioner testified that his first trial ended in a mistrial after the jury was unable to
reach a verdict. He said his family retained a different attorney for his second trial and trial
counsel began representing him only twenty-one days before the second trial began. He
claimed trial counsel visited him only two times before trial, in visits that lasted.thirty
minutes or less. According to the petitioner, trial counsel never prepared him for testifying
and never even discussed before trial whether or not he would testify. He said he
consequently felt unprepared to testify, which is why he opted not to take the stand in his
own defense. Had he been prepared and testified, he would have told the jury that he did
not kill the victim.
The petitioner also complained about trial counsel's failure to call Ms. Wooten and Mr.
Parrish as witnesses and his failure to effectively impeach Ms. Cox's testimony with her
testimony from the first trial. He said he wanted trial counsel to call Ms. Wooten as a
witness at his second trial because she had testified at his first trial, which resulted in a
hung jury, and he believed her testimony would have made a difference in his second trial.
He said counsel never explained to him why he failed to call her as a witness.
The petitioner testified he had no knowledge before either of his trials about the
information Mr. Parrish provided at the evidentiary hearing, but also no knowledge of what
kind, if any. investigation trial counsel conducted or if counsel could have discovered Mr.
Parrish as a potential witness. As for Ms. Cox. he believed that counsel should have
impeached her testimony at his second trial with her testimony from the first trial. He
explained that in the first trial, Ms. Cox simply testified that Ms. Littlejohn told her that she
had committed the crime, while in the second she testified that Ms. Littlejohn told her that
she had shot the victim in the back of the head. The petitioner said he thought trial
iW
ft/lr- Pov to roorl fro rv* k> o r rtrat/iAi
triol to c t i rvn r“\ rh v r to* chntAt f
cuunoci tsitvjuiu i iavc aoncu ivio. uua i<_> icou
11C.1 |v<C«iOuo mm ivoumvuj uvy £>■ iv>> mv.

jury the discrepancies in her accounts.
'6 The petitioner also complained that trial counsel failed to object to hearsay testimony by
Detective Corey Wall about having been told by Chaz Ellis to speak to Ms. Littlejohn about

1

the crime Lastly, he claimed that trial counsel fell asleep during his trial, testifying that
counsel was "supposed to have been taking notes.” but his paper fell to the floor twice
while he was sitting at the defense table.
On cross-examination, the petitioner denied that his family retained trial counsel shortly
before his second trial because he was not getting along with his former counsel. Instead,
he claimed that trial counsel “showed up alleging that he was his attorney' and when he
called his family to inquire, they told him that they had hired'him. The petitioner
acknowledged that his first jury had voted 11 to 1 to convict him. Because his first trial
ended in a hung jury, he thought trial counsel should have “followed] the same platform
[of the first trial] instead of subtracting from what ha[d] already been laid out as a
foundation." He said he told trial counsel that his words of 'stick to the script" meant to tell
the truth and that counsel told him he would find someone from the African-American
community to testify to that effect. The petitioner disagreed that Ms. Wooten's testimony
that someone else was in the car with Mr. Carter helped the State's case. On redirect
examination, he reiterated his belief that Ms. Cox's testimony from the first trial that she
was unable to see who was in the car with Mr. Carter helped his defense in the first trial.
Trial counsel, called as a witness by the State, testified that he had been licensed to
practice law for approximately thirty-nine years. He said he was contacted by the
petitioner's aunt and other family members who indicated that the petitioner's relationship
with his former counsel was “strained" and asked him to take over the case. During his
appearance notice, three weeks before the scheduled trial, the trial court addressed the
fact that the trial had been set for a number of months and could not be reset. Trial
counsel stated that he thought his taking on the case was what the petitioner needed and
“a positive situation" due to the petitioner's strained relationship with his former counsel.
Former counsel was very cooperative, furnishing him with “everything he had," and trial
counsel devoted-all of his time from the date he was retained until trial in preparing for the
case.
Trial counsel testified that he met with the petitioner three different times, for a total of over
three hours, in his preparation for the case. He characterized their meetings as "very
productive." testifying that he and the petitioner communicated well and reviewed together
the first trial transcript “line by line.” Among other things, he and the petitioner discussed
the State's evidence against the petitioner, potential witnesses and theories of defense,
and which factors in the first trial had not been favorable to the petitioner. The petitioner
was very interested in having Ms. Littlejohn and Ms. Cox as witnesses, but he never
mentioned Mr Parrish. Trial counsel said he also "zeroed in" on the petitioner's “stick to
the script" statement, spending “the better part" of one or two days trying through his
connection with the “Nashville Inner City Ministry" to find someone to testify that in the
African-American community the words could be interpreted as “tell the truth as opposed
to say what we had planned to say." He could not. however, “find anyone that would agree
that they could do that in good conscience "
*7 Trial counsel testified that he considered calling Ms. Wooten as a witness at the second
trial. However, after talking with her, he "had...chiiis” based on the way she expressed
herself and therefore believed that she would not “be anything but a possible liability" for
the petitioner if she testified. He said he spoke with Ms. Cox twice before trial, provided
her with gas money to travel to the trial from her home in Kentucky, and called her as
witness. He repeated that the petitioner never mentioned Mr. Parrish at all.
Trial counsel further testified that he had extensive conversations with the petitioner about
the pros and cons of testifying in his own defense and that it was the petitioner's ultimate
decision. In addition, the trial court conducted a “very, very thorough examination" with the
petitioner about his decision not to take the stand.
On cross-examination, trial counsel testified he had never tried a first degree murder case
with only three weeks of preparation. He said he met with the petitioner either the same
day that the petitioner's aunt retained him, or the following day. He also informed the
petitioner, upon assumption of the case, “that it was [his] understanding that the Court
would not grant a continuance because [he] came into the case." Trial counsel testified
that he “would have liked a little more latitude in ...developing Ms. Cox's testimony," but he
was limited by the trial court's rulings. Trial counsel reiterated that Ms. Wooten's demeanor
and body language on the day of the trial led-him to believe, based on his years of
experience, that she would be a liability if he called her as a witness. Finally, trial counsel
categorically denied that he at any point fell asleep during the trial.

■Ik

1
The petitioner's aunt. Janice Gordon, called as a rebuttal witness by the petitioner,
testified that she noticed trial counsel drop his head and start to "drift off' at least three
times during the trial. On cross-examination, Ms. Gordon testified that the petitioner was in
agreement with the family's decision to hire trial counsel to replace the petitioner's original
counsel, whom they believed was not representing the petitioner well.
On April 4. 2016, the post-conviction court entered an order denying the petition for post­
conviction relief based on the allegations of ineffective assistance of trial counsel. The
court, however, granted the petitioner a delayed appeal to the supreme court due to
appellate counsel's failure to file a Rule 11 application for permission to appeal. That same
day, the petitioner filed a timely notice of appeal to this court in which he challenged the
post-conviction court's finding that he received effective assistance of trial counsel.
Waktins. 2017 WL 1048130, at "2-4.
III. Standard of Review
The petition in this case is governed by the Antiterrorism and Effective Death Penalty Act of
1996 (“AEDPA"). TheAEDPA was enacted “to reduce delays in the execution of state and
federal criminal sentences...and to further the principles of comity, finality, and federalism.”
Woodford v. Garceau. 538 U.S. 202, 206 (2003) (internal citations and quotation marks
omitted). As the Supreme Court explained, the AEDPA "recognizes a foundational principle
of our federal system: State courts are adequate forums for the vindication of federal rights.”
Burt v. Titlow. 571 U.S. 12, 19 (2013). The AEDPA, therefore, “erects a formidable barrier to
federal habeas relief for prisoners whose claims have been adjudicated in state court.” Id
One of the AEDPA's most significant limitations on the federal courts' authority to issue writs
of habeas corpus is found in 28 U.S C. § 2254(d). Under the AEDPA. the court may grant a
writ of habeas corpus on a claim that was adjudicated on the merits in state court if that
adjudication:
*8(1) resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d); Williams v Taylor. 52S U.S. 362, 405 (2000).
The state court’s factual findings are presumed to be correct and they can be contravened
only if the petitioner can show by clear and convincing evidence that the state court’s factual
findings were erroneous. 28 U.S.C. § 2254(e)(1). As the Supreme Court has advised, ”[t]he
question under AEDPA is not whether a federal court believes the state court’s determination
was incorrect but whether that determination was unreasonable—a substantially higher
threshold." Schriro v. Landrigan. 550 U.S. 465, 473 (2007) (citing Williams. 529 U.S. at 410).
Review under § 2254(d) (1) “is limited to the record that was before the state court that
adjudicated the claim on the merits." Cullen v. Pinholster 563 U.S. 170. 182 (2011).
“Before seeking a federal writ of habeas corpus, a state prisoner must exhaust available
state remedies, 28 U.S.C. § 2254(b), thereby giving the State the 'opportunity to pass upon
and correct’ alleged violations of its prisoners’ federal rights." Baldwin v. Reese. 541 U.S. 27,
29 (2004) (citations omitted). "To provide the State with the necessary 'opportunity,' the
prisoner must 'fairly present' his claim in each appropriate state court (including a state
supreme court with powers of discretionary review), thereby alerting that court to the federal
nature of the claim." Id, (citation omitted); Gray v. Netherland. 518 U.S. 152, 162-63 (1996)
(the substance of the claim must have been presented as a federal constitutional claim).
This rule has been interpreted by the Supreme Court as one of total exhaustion. Rose v.
Lundv. 455 U.S. 509 (1982). Thus, each and every claim set forth in the federal habeas
corpus petition must have been presented to the state appellate court. See Picard v. Connor.
404 U.S. 270, 275 (1971); see also PijJette_y._Fo!tz, 824 F.2d 494. 496 (6th Cir. 1987)
(exhaustion “generally entails fairly presenting the legal and factual substance of every claim
to all levels of state court review").
Claims which are not exhausted are procedural!'/ defaulted and "ordinarily may not be
considered by a federal court on habeas review." Alley v. Bell. 307 F.3d 380, 388 (6th Cir.
2002). “In order to gain consideration of a claim that is procedurally defaulted, a petitioner
must demonstrate cause and prejudice for the failure, or that a miscarriage of justice will
result from the lack of review." Id. at 386. The burden of showing cause and prejudice to

excuse defaulted claims is on the habeas petitioner. Lucas v. O'Dea. 1 r9 F.3d 412, 413 {6th
Cir. 1999) fcitino Coleman v. Thompson. 501 U.S. 722. 754 (1991)).
A petitioner may establish cause by l'show[ing] that some objective factor external to the
defense impeded counsel's efforts to comply with the State's procedural rule." Murray v.
Carrier. 477 U.S 478. 488 (1986). Objective impediments include an unavailable claim or
interference by officials that made compliance impracticable. |d. Constitutionally ineffective

<

assistance of trial or appellate counsel may constitute cause. Murray. 477 U.S at 488-89.
Generally, however, if a petitioner asserts ineffective assistance of counsel as cause for a
default, that ineffective assistance claim must itself have been presented to the state courts
as an independent claim before it may be used to establish cause, |d. If the ineffective
assistance claim is not presented to the state courts in the manner that state law requires,
that claim is itself procedurally defaulted and can only be used as cause for the underlying
defaulted claim if the petitioner demonstrates cause and prejudice with respect to the
ineffective assistance claim. Edwards v. Carpenter. 529 U.S. 446, 452-53 (2000).
•9 Petitioners in Tennessee also can establish "cause" to excuse the procedural default of a
substantial claim of ineffective assistance by demonstrating the ineffective assistance of
post-conviction ccunssl in fsiiinQ to rsiss ths cteiro in initis! rsvisw post-conviction
proceedings. See Martinez v. Rvan. 566 U.S. 1. 5-6 (2012) (creating an exception to
Coleman where state law prohibits ineffective assistance claims on direct appeal); Trevino v.
Thaler. 569 U.S. 413. 429 (2013) (extending Martinez to states with procedural frameworks
that make meaningful opportunity to raise ineffective assistance claim on direct appeal
unlikely); Sutton v. Carpenter. 745 F.3d 787. 792 (6th Cir. 2014) (holding that Martinez and
Trevino apply in Tennessee). The Supreme Court's creation in Martinez of a narrow
exception to the procedural default bar stemmed from the recognition, "as an equitable
matter, that the initial-review collateral proceeding, if undertaken without counsel or with
ineffective counsel, may not have been sufficient to ensure that proper consideration was
given to a substantial claim." Martinez. 566 U S. at 13. In other words, Martinez requires that
the ineffective assistance of post-conviction counsel occur during the “initial-review collateral
proceeding," and that “the underlying ineffective-assistance-of-trial-counsel claim [be] a
substantial one, which is to say that the prisoner must demonstrate that the claim has some
merit.” See id. at 13-15. Importantly, Martinez did not dispense with the "actual prejudice"
prong of the standard for overcoming procedural default first articulated by the Supreme
Court in Coleman.
To establish prejudice, a petitioner must demonstrate that the constitutional error "worked to
his actual and substantial disadvantage." Perkins v. LeCureux. 58 F.3d 214, 219 (6th Cir.
1995) (quoting United States v. Fradv 456 U.S 152. 170 (1982) (emphasis in original)).
"When a petitioner fails to establish cause to excuse a procedural default, a court does not
need to address the issue of prejudice.” Simpson v. Jones. 238 F.3d 399, 409 (6th Cir. 2000)
(citations omitted).
Because the cause and prejudice standard is not a perfect safeguard against fundamental
miscarriages of justice, the Supreme Court also has recognized a narrow exception to the
cause requirement where a constitutional violation has “probably resulted" in the conviction
of one who is “actually innocent” of the substantive offense. Dretke v. Halev. 541 U.S. 386,
392 (citing Murray. 477 U.S. at 496).
IV. Analysis
With these principles in mind, the Court will turn to the examination of the claims raised in
Watkins's petition for habeas relief.
A. Sufficiency of Evidence claim
In his first claim, Petitioner alleges that the evidence was insufficient to sustain his
conviction. (Doc. No 1 at PagelD# 5). Specifically, Petitioner argues that “[t]here was no
physical evidence connecting him to the crime scene and that many of the witnesses were
not creditable [sic]." (Id ) In his answer. Respondent contends that the determination by the
Tennessee Court of Criminal Appeals that the evidence is legally sufficient to support
Petitioner’s conviction was not contrary to, or an unreasonable application of clearly
established Supreme Court precedent, nor was it based on an unreasonable determination
of the facts, in light of the evidence presented at trial. (Doc. No. 11 at PagelD# 10).
Petitioner raised this claim on direct appeal. (Doc. No. 9. Attach. 6 at PagelD# 672).
Therefore, this Court must presume the correctness of the state court's factual
determinations. 28 U.S.C. § 2254(e)(1). Petitioner may rebut this presumption only with clear
and convincing evidence. Warren v. Smith. 161 F.3d 358, 360-61 (6th Cir. 1998).

i

>

On sufficiency of the evidence challenges, habeas relief is warranted “only where the court
finds, after viewing the evidence in the light most favorable to the prosecution, that no
rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt.” Tucker v. Palmer. 541 T.3d 652, 656 (6th Cir. 2008) (internal quotation
omitted); see Jackson v. Virginia, 443 U.S. 307, 319 (1979) ("Instead, the relevant question
is whether, after reviewing the evidence in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt’) (emphasis in original).
*10 In considering Petitioner's sufficiency of evidence claims in its opinion, the Tennessee
Court of Criminal Appeals began by setting forth the correct legal standard:
The standard for appellate review of a claim challenging the sufficiency of the State's
evidence is "whether, after viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the essential elements of the crime
beyond a reasonable doubt." Jackson v. Viroinia. 443 U.S. 307, 319, 99 S. Ct. 2781,61
L.Ed.2d 560 (1979) (citing Johnson v. Louisiana. 406 U.S. 356, 362. 92 S. Ct. 1620, 32
L.Ed.2d 152 (1972)); seeTenn. R.App. P. 13(e); State v. Davis. 354 S W.3d 718, 729
(Tenn. 2011). To obtain relief on a claim of insufficient evidence, appellant must
demonstrate that no reasonable trier of fact could have found the essential elements of
the offense beyond a reasonable doubt. See Jackson. 443 U.S. at 319. This standard of
review is identical whether the conviction is predicated on direct or circumstantial
evidence, or a combination of both. State v. Dorantes, 331 S.W.3d 370, 379 (Tenn. 2011);
State v. Brown. 551 S.W.2d 329, 331 (Tenn 1977).
On appellate review, “ 'we afford the prosecution the strongest legitimate view of the
evidence as well as all reasonable and legitimate inferences which may be drawn
therefrom.’" Davis. 354 SAA/.3d at 729 (quoting State v. Majors. 318 S.W.3d 850, 857
(Tenn, 2010)); State v. Williams, 657 S.W.2d 405, 410 (Tenn. 1983); State v. Cabbage.
571 S.W.2d 832, 835 (Tenn. 1978). In a jury trial, questions involving the credibility of
witnesses and the weight and value to be given the evidence, as well as all factual
disputes raised by the evidence, are resolved by the jury as trier of fact. State v. Bland.
958 S.W.2d 651.659 (Tenn.1997); State v. Pruett. 788 S.W.2d 559, 561 (Tenn.1990). This
court presumes that the jury has afforded the State all reasonable inferences from the
evidence and resolved all conflicts in the testimony in favor of the State; as such, we will
not substitute our own inferences drawn from the evidence for those drawn by the jury, nor
will we re-weigh or re-evaluate the evidence. Dorantes. 331 S.W 3d at 379; Cabbage. 571
S.W.2d at 835; see State v. Sheffield. 676 S.W 2d 542, 547 (Tenn. 1984). Because a jury
conviction removes the presumption of innocence that appellant enjoyed at trial and
replaces it with one of guilt at the appellate level, the burden of proof shifts from the State
to the convicted appellant, who must demonstrate to this court that the evidence is
insufficient to support the jury’s findings. Davis. 354 S.W.36 at 729 (citing State v. Sisk.
343 S.W.3d 60, 65 (Tenn. 2011)).
Watkins. 2014 WL 2547710, at *5.
The court next considered the definition of the crime for which Petitioner was convicted:
Tennessee Code Annotated section 39-13-202(a) defines this category of first degree
murder as "[a] premeditated and intentional killing of another.'
"[Premeditation" is an act done after the exercise of reflection and judgment.
"Premeditation” means that the intent to kill must have been formed prior to the act
itself. It is not necessary that the purpose to kill pre-exist in the mind of the accused for
any definite period of time. The mental state of the accused at the time the accused
allegedly decided to kill must be carefully considered in order to determine whether the
accused was sufficiently free from excitement and passion as to be capable of
premeditation.
*«M-§ 39-13-202(d).
Watkins. 2014-WL 2547710, at "6. The state appellate court considered the evidence
adduced at trial and determined that it was sufficient to meet each of the elements of the
offense. Petitioner believed the victim to'be a "snitcn," went into the victim's hotei room, and
shot him three times in the head Id- Stephanie Littlejohn and Brianna Stanton both testified
that Petitioner was concerned that the victim had given information to the police. William
Carter testified that he drove Petitioner to the victim's hotel room. Petitioner left the car
briefly and, when he returned, he commented. “ ‘[T)wo shots to the head [;] he ain't talking

1

no more.'" Id- Mr. Carter's testimony was corroborated in part by Ms. Littlejohn's testimony.
Ms. Littlejohn testified that the victim had her laptop and. because she knew Petitioner was
going to visit the victim, she asked him to bring her laptop back when he returned. When
Petitioner returned from his outing with Mr. Carter, he had her laptop in his possession. Ms.
Littlejohn also testified that Petitioner said a prayer for the victim and told her that he had
shot the victim three times in the head. The medical examiner confirmed that the victim had
three gunshot wounds to the front of his head.
In challenging the sufficiency of the evidence used to convict him, Petitioner argued that the
witnesses's testimonies were not credible. The Tennessee Court of Criminal Appeals found
that this argument was without merit because all witnesses had been thoroughly crossexamined, and the jury assessed the testimony of the witnesses and evidence at trial. Id at
*7. The court ultimately concluded that the evidence was sufficient for a reasonable juror to
find that Petitioner committed first-degree murder. Id.
Here, the decision of the Tennessee Court of Criminal Appeals was not an unreasonable
application of the facts or contrary to law, even though there was no physical evidence
linking Petitioner to the crime scene.
The state appellate court's finding that the State established that Petitioner committed the
intentional and premeditated killing of the victim beyond a reasonable doubt was not
unreasonable. A defendant's "state of mind is crucial to the establishment of the elements of
the offense," State v. Brown. 836 S.W.2d 530, 541 (Tenn. 1992); thus, the State may prove
premeditation by circumstantial evidence. Several factors support the existence of
premeditation, including: “the use of a deadly weapon upon an unarmed victim; the particular
cruelty of the killing; declarations by the defendant of an intent to kill: evidence of
procurement of a weapon; preparations before the killing for concealment of the crime, and
calmness immediately after the killing." State v. Bland. 958 S.W.2d 651,660 (Tenn.1997)
(citing Brown. 836 S.W.2d at 541-42; State v. West. 844 S.W.2d 144. 148 (Tenn.1992)).
Here, the evidence adduced at trial provided circumstantial proof that Petitioner acted with
premeditation when he shot the victim. The evidence showed that Petitioner went inside the
victim’s hotel room concerned the victim he had given information to the police about Chaz
Ellis and Bobby Gurley. When he returned from the hotel room. Petitioner told Mr. Carter, “
'[Tjwo shots to the head[;j he ain't talking no more'" and discarded the shirt Petitioner had
worn into the hotel room. Petitioner told Ms. Littlejohn that he had shot the victim three times
and said a prayer for him. This evidence supports the state appellate court's finding that the
evidence was sufficient to support Petitioner's conviction for first-degree premeditated
murder.
*J2Although Petitioner urges here, as he did on direct appeal, that the witnesses were not
credible, Mr. Carter, Ms. Stanton, and Ms. Littlejohn all testified that Petitioner threatened Mr.
Carter after learning that Mr. Carter told his girlfriend about taking Petitioner to the victim's
hotel. In addition, Ms. Stanton testified that the victim's murder was the subject of the
telephone conversations she had with Petitioner. Detective Wall testified that Ms. Littlejohn,
Ms. Stanton, and Mr. Carter each gave statements during the investigation that were
consistent with each other. A reviewing court does not reweigh the evidence or redetermine
the credibility of the witnesses, whose demeanor has been observed by the Inal court.
Marshall v. Lonberaer. 459 U.S. 422, 434 (1983). It is the role of the factfinder to weigh the
probative value of the evidence and resolve any conflicts in testimony Neal v. Morris. 972
F.2d 675, 679 (6th Cir. 1992). This Court will not second guess the jury’s credibility
determinations. See Bovles v. Sherry. No. 2:06-cv-12207, 2008 WL 4793412, at '12 (E.D.
Mich. Oct. 31,2008 (reiterating that, on habeas review, the court must defer to the jury's
findings).
The Court finds that the decision of the Tennessee Court of Criminal Appeals was not based
on an unreasonable determination of the facts in light of the evidence presented in the state
court proceedings. Furthermore, given the evidence and testimony adduced at trial, the
Court finds that the state court's decision to reject Petitioner's sufficiency of evidence claim
was not an unreasonable application of the law. Petitioner therefore is not entitled to habeas
relief on this claim.
B. Due process claim
Next. Petitioner alleges that he was denied due process of iaw under the Fourteenth
Amendment when the trial court limited the testimony of Deborah Cox, a defense witness.
(Doc. No. 1 at PagelD# 7). Respondent contends that, because Petitioner did not raise a
constitutional claim of due process on direct appeal, this claim is barred by procedural
default. (Doc. No. 11 at PagelD# 13)

i-

>

To preserve a federal constitutional claim for presentation in habeas corpus, the claim must
be "fairly presented" to the state courts in a way that provides them with an opportunity to
remedy the asserted constitutional violation, including presenting both the legal and factual
basis of the claim. Williams v. Anderson. 460 F.3d 789, 806 {6th Cir. 2006); Levine v. Torvik.
986 F.2d 1506. 1516 (6th Cir.), cert, denied. 509 U.S. 907 (1993). overruled in cart on other
grounds bv Thompson v. Keohane. 516 U.S 99 (1995); Riggins v. McMackin. 935 F.2d 790.
792 (6th Cir. 1991). The claim must be fairly presented at every stage of the state appellate
process. Wagner v. Smith. 581 F.3d 410, 418 (6th Cir 2009). In reviewing the state court
proceedings to determine whether a petitioner has “fairly presented" a claim to the state
courts, courts look to the petitioner's: “(1) reliance upon federal cases employing
constitutional analysis; (2) reliance upon state cases employing federal constitutional
analysis; (3) phrasing the claim in terms of constitutional law or in terms sufficiently particular
to allege a denial of a specific constitutional right; or (4) alleging facts well within the
mainstream of constitutional law." Slaughter v. Parker. 450 F,3d 224, 236 (6th Cir. 2006)
(Quoting Whiting v. Burt. 395 F.3d 602, 613 (6tn Cir. 2005)).
“While a petitioner need not cite ‘chapter and verse’ of constitutional law, 'general allegations
of the denial of rights to a 'fair trial' and 'due process' do not ‘fairly present claims' that
specific constitutional rights were violated." Slaughter. 450 F.3d at 236 (quoting Blackmon v.
Booker. 394 F.3d 399, 400 (6th Cir. 2004)). “A lawyer need not develop a constitutional
argument at length, but he must make one; the words due process' are not an argument.”
Riggins v. McGinnis. 50 F.3d 492, 494 (7th Cir. 1995). If a petitioner's claims in federal
habeas rest on different theories than those presented to the state courts, they are
■ procedurally defaulted. Williams v. Anderson. 460 F.3a 789. 806 (6th Cir. 2006).
*73 Here, Petitioner raised on direct appeal a claim that the trial court improperly limited the
testimony of Deborah Cox regarding a prior inconsistent statement made to her by
Stephanie Littlejohn. He made the claim on state law evidentiary grounds, arguing that Ms.
Littlejohn's prior inconsistent statement should have been admitted to impeach the credibility
of the witness. (Doc. No. 9, Attach. 6 at PagelD# 673-75). Petitioner's brief cited Tennessee
Rules of Evidence 105 and 404(b). (id. at PagelD# 673). The brief relied on state court
cases and did not cite a single federal case. (Id.) In reviewing this claim, the Tennessee
Court of Criminal Appeals cited Tennessee Rule of Civil Procedure 36(a) and found that
Petitioner had waived the claim because his counsel acquiesced to the trial court's ruling
that only the first part of Ms. Cox’s testimony was admissible. Watkins 2014 WL 2547710,
at *8. The court therefore denied relief on this claim, jd. In issuing its ruling, the court made
no reference to federal law and did not treat Petitioner's claim as one brought under federal
law. (Id.)
Consequently, the Court finds that Petitioner did not fairly present his federal due process
claim to the state courts. The claim is now barred from presentation to the state courts by
Tennessee Rule of Appellate Procedure 4, the statute of limitations under Tennessee Code
Annotated § 40-30-102(a), and the “one petition" limitation of § 40-30-102(c). As a result, the
claim is deemed to be exhausted (because no avenue for raising the claim in state appellate
court remains) but procedurally defaulted for the purpose of federal habeas review.
Federal habeas review of Petitioner's procedurally defaulted claim is barred unless
Petitioner can demonstrate that cause and prejudice will excuse the procedural default or
that failure to consider the claim will result in a fundamental miscarriage of justice. See
Harris. 489 U.S. at 262; Coe. 161 F.3d at 329-30. Petitioner presents no argument
establishing cause and prejudice to excuse the default of his claim, and there is no evidence
that failure to consider this claim will result in a fundamental miscarriage of justice.
Consequently, Petitioner's procedurally defaulted due process claim must be dismissed.
C. Ineffective Assistance of Counsel claims
Petitioner alleges that he was denied ineffective assistance of counsel when trial counsel
failed to adequately investigate the case, failed to interview witnesses who could have
provided testimony favorable to Petitioner, and failed to consult with Petitioner prior to trial,
including failing to prepare Petitioner to testify at trial. He also alleges that he was denied
effective assistance of counsel when trial counsel failed to (1) call Clifford Parrish to testify.
(2) properly cross-examine Deborah Cox, (3) object to Detective Corey Wall's hearsay
statements, and (4) call Lashona Wooten to testify. (Doc. No. 1 at PagelD# 5-11).
The Sixth Amendment to the United States Constitution, as applied to the states through the
Fourteenth Amendment, guarantees the right of a person accused of a crime to the effective
assistance of counsel. To prevail on a claim of ineffective assistance of counsel, a petitioner
must show (1) deficient.performance of counsel and (2) prejudice to the defendant. See Beli

y

v. Cone. 535 U.S. 685, 694-95 (2002) Trial counsel's performance is deficient when it falls
below an objective standard of reasonableness. See Strickland v. Washington. 466 U.S.
668, 686-87 (1984); Combs v. Covle. 205 F.3d 269, 278 (6th Cir. 2000), cert, denied. 531
U.S. 1035 (2000). In assessing performance, “strategic choices made after thorough
investigation of law and facts relevant to plausible options are virtually unchallengeable; and
strategic choices made after less than complete investigation are reasonable precisely to the
extent that reasonable professional judgments support the limitations on investigation."
Strickland. 466 U.S. at 690-91. Reasonable attorneys may disagree on the appropriate
strategy for defending a client. Bigelow v, Williams. 367 F.3d 562, 570 (6th Cir 2004). The
prejudice element requires a petitioner to show "that there is a reasonable probability that,
but for counsel's unprofessional errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to undermine confidence in the
outcome." Strickland. 466 U.S. at 694.
'14 A court hearing an ineffective assistance of counsel claim must consider the totality of
the evidence. Strickland. 466 U.S. at 695. “The determinative issue is not whether
petitioner’s counsel was ineffective but whether he was so thoroughly ineffective that defeat
was 'snatched from the jaws of victory.'" West v. Seabold. 73 F.3d 81. 84 (6th Cir. 1996)
(quoting United States v. Morrow. 977 F.2d 222, 229 (6th Cir. 1992) (en banc)). “Judicial
scrutiny of counsel's performance must be highly deferential. It is all too tempting for a
defendant to second-guess counsel's assistance after conviction or adverse sentence, and it
is all too easy for a court, examining counsel's defense after it has proved unsuccessful, to
conclude that a particular act or omission of counsel was unreasonable." Strickland. 466
U.S. at 689.
As discussed above, however, federal habeas relief may not be granted under 28 U.S.C. §
2254 unless a petitioner shows that the earlier state court's decision "was contrary to"
federal law then clearly established in the holdings of the United States Supreme Court. §
2254(d)(1); that it “involved an unreasonable application of" such law; or that it “was based
on an unreasonable determination of the facts" in light of the record before the state court.
28 U.S.C. § 2254(d)(1),(2). Thus, when a claim of ineffective assistance of counsel is raised
in a federal habeas petition, such as here, the question to be resolved Is not whether the
petitioner's counsel was ineffective. Rather, "[t]he pivotal question is whether the state
court's application of the Strickland standard was unreasonable." Harrington v, Richter. 552
U.S. 86, 101 (2011). As the Supreme Court clarified in Harrington:

This is different from asking whether defense counsel's performance fell
below Strickland's standard. Were that the inquiry, the analysis would be no
different than if, for example, this Court were adjudicating a Strickland claim
on direct review of a criminal conviction in a United States district court.
Under AEDPA, though, it is a necessary premise that the two questions are
different. For purposes of § 2254(d)(1), an unreasonable application of
federal law is different from an incorrect application of federal law. A state
court must be granted a deference and latitude that are not in operation
when the case involves review under the Strickland standard itself.

Harrington. 562 U.S. at 101 (internal quotation marks and citation omitted).
1. Pre-Trial Investigation and Preparation
Petitioner contends that trial counsel was ineffective for failing to adequately investigate,
failing to interview witnesses who could have provided testimony favorable to Petitioner, and
failing to consult with Petitioner prior to trial including preparing Petitioner for testifying at
trial. (Doc. No. 1 at PagelD# 8-9). In particular, Petitioner argues that counsel failed to
interview a potential witness, Lashona Wooten, who testified at Petitioner’s first trial.
Petitioner believes that “she could [have] identified] an unidentified person" and “would have
raised a doubt as to Petitioner's presence at the location where the victim was killed." (Id. at
PagelD# 9).
Petitioner raised these claims in his petition for post-conviction relief. (Doc. No 9, Attach. 11
at PagelD# 817-18). He argued that counsel should have interviewed Ms. Wooten, who had
testified at Petitioner s first trial, because her testimony wouia have raised a doubt as io
Petitioner's presence at the location where the victim was killed, (id. at 818). He also argued
that, before trial, trial counsel only met with Petitioner twice for less than thirty minutes each
time and did not prepare Petitioner for testifying at trial in his own defense. (Id.) According to
Petitioner, he waived his right to testify due to being unprepared and. had he testified, he

V

would have told the jury that he was not guilty, pointed out discrepancies in witness
testimony, and the result of his trial would have been different. (Jd )
'15 During his post-conviction evidentiary hearing, Petitioner testified that trial counsel only
met with Petitioner twice for less than thirty minutes each time and did not prepare Petitioner
for testifying at trial in his own defense. (Doc. No. 9, Attach. 12 at PagelD# 902). He testified
that that they did not discuss whether Petitioner would testify at trial. (Id. at PagelD# 903).
When asked what he would have said had he been called as a witness, Petitioner
responded that he would have told the jury that he did not kill Thomas Turner. (Id.)
At Petitioner's evidentiary hearing, trial counsel testified that, in preparing for trial, he
reviewed the transcript from the first trial, visited the crime scene, and spent approximately
eight hours reviewing records, exhibits, and photographs. (Doc. No. 9, Attach. 12 at PagelD#
923-27). He enlisted the help of a nurse who helped him interpret the medical records and
who provided insight on the photographs of the deceased victim; counsel filed a motion in
limine to exclude those photographs. (Doc. No. 9, Attach. 12 at PagelD# 925). He worked
with prior counsel's investigator and hired his own investigator. (Id. at 933-34). He
interviewed all of the witnesses himself, including Ms. Wooten. (Id at 927-28). Counsel also
testified that he advised Petitioner that it would be to be advantage to testify If he could do
so truthfully, but if he felt anything may go wrong or that he may get crossed up, then to
"think twice" about taking the stand, (jd. at 928-29). Trial counsel emphasized that the
decision to testify or not was left to Petitioner. (Id. at 938-39).
The post-conviction court denied relief, explicitly accrediting trial counsel's testimony at the
post-conviction hearing, finding that “Petitioner has not met his burden of establishing by
clear and convincing evidence that Trial Counsel was ineffective in his trial preparation or
that Petitioner was prejudiced by any alleged deficiency." (Doc. No. 9, Attach. 11 at PagelD#
848-49). The court found that “[njothing in the record indicates that Trial Counsel failed to
meet with the Petitioner and keep him informed of the proceedings." (Id.)
On appeal of the denial of post-conviction relief, the Tennessee Court of Criminal Appeals
set forth the governing legal standard for claims of ineffective assistance of counsel, jd. at
*5. Applying Strickland to the facts of Petitioner’s case, the Tennessee Court of Criminal
Appeals agreed with the post-conviction court that trial counsel’s performance was not
deficient or prejudicial, finding that “[tjrial counsel was a very experienced trial attorney who
conducted a thorough investigation of the facts, reviewed the record from the first trial, and
communicated with the petitioner about the facts, defense theories, and the pros and cons of
testifying in his own defense.’ jd- at *6. The court specifically accredited the testimony of trial
counsel over that of the petitioner, finding that trial counsel conducted a thorough
investigation, adequately met with the petitioner to review the previous trial transcript and the
facts of the case, and effectively communicated with the petitioner about the case, including
his options regarding testifying at trial, jd. at *5.
These findings were not unreasonable. With regard to Petitioner's claim that trial counsel
failed to adequately investigate and prepare for trial, trial counsel testified at Petitioner's
post-conviction evidentiary hearing that he had been practicing law in the state of Tennessee
for about thirty-nine years and roughly half of his practice had been dedicated to criminal
defense work. (Doc. No. 9, Attach. 12 at PagelD# 920-21). Trial counsel testified that,
despite having been hired by Petitioner's family only three weeks prior to his second trial,
counsel was able to devote himself entirely to Petitioner’s case from the date he was
retained until the trial. (Doc. No. 9, Attach, 12 at PagelD# 922-23). Counsel testified that he
met with Petitioner three different times for about an hour each time, during which time they
reviewed the transcript from the first trial “line by line.” (Id. at PagelD# 923, 925). Counsel
felt that the meetings were “very productive" and that he and Petitioner “had no problems
communicating." (Id at PagelD# 924). Counsel spoke with Petitioner about possible
defenses and witnesses, (jd at PagelD# 925). Counsel filed three motions in limine on
Petitioner's behalf and visited the crime scene before the trial as part of his preparation. (Id
at PagelD# 926). He spent approximately eight hours reviewing records and exhibits, (jd.)
He enlisted the assistance of a nurse who provided insight on the photographs of the
deceased and filed a motion in limine to exclude the photographs. (Id.) In addition to working
with prior counsel’s investigator, trial counsel retained the services of his own investigator.
'76 With regard to Petitioner's allegation that trial counsel failed to interview Lashona
Wooten, trial counsel testified that he interviewed all of the defense witnesses himself,
including Ms. Wooten. This Court must defer to the state court's credibility determinations of
witnesses whose demeanor has been observed by that court, unless Petitioner
demonstrates the state credibility determinations are not supported by the record. See Rice

i

>

V. Collins, 546 U S. 333. 339 (2006) (“Reasonable mind reviewing the record might disagree
about the prosecutor's credibility, but on habeas review that does not suffice to supersede
the trial court's credibility determinations'); Bennetl v. Mills. No. 1:06-cv-254, 2007 WL
2823324, at *6 {E.D. Tenn. Sept. 27, 2007) (in determining whether the petitioner had
submitted credible new evidence of actual innocence, deferring to the state court's credibility
determinations). Petitioner has not demonstrated that the state court’s credibility
determinations are unsupported by the record.
With respect to Petitioner's allegation that trial counsel failed to consult with him prior to trial,
the Tennessee Court of Criminal Appeals credited trial counsel’s testimony at the post­
conviction evidentiary hearing that he met with Petitioner three times for an hour each and
that those meetings very productive. This Court will not redetermine the credibility of
witnesses whose demeanor has been observed by the trial court. Marshall. 459 U S 422,
434.
The constitutional right of a defendant to testify at trial is well established and subject only to
a knowing and voluntary waiver by the defendant. Rock v. Arkansas. 483 U.S. 44, 4S (1987).
Defense counsel's role is to advise the defendant whether to take the stand; ultimately, the
defendant must decide for himself. See Pelzer v. United States. No. 96-1195, 1997 WL
12125, at *2 (6th Cir. Jan. 13. 1997) (citation omitted). To the extent that Petitioner argues
that trial counsel’s failure to consult with him prior to trial resulted in Petitioner being
unprepared to testify in his own defense, counsel testified at the evidentiary hearing that he
had extensive conversations with Petitioner about the possibility of testifying. (Doc. No. 9,
Attach. 12 at PagelD# 928) Trial counsel testified that he advised Petitioner that it would be
to his advantage to testify at trial if he could do truthfully, but if he felt anything may go wrong
or he may get crossed up, then to "think twice" about taking the stand. Trial counsel
emphasized that the decision whether or not to testify was left to Petitioner, who made his
decision after being advised of his rights by the court and executing a Moman waiver.
Even if Petitioner had established that counsel’s performance was deficient as alleged,
Petitioner has not established that he was prejudiced by it. Petitioner has failed to show how
better preparation for trial would have resulted in a reasonable probability of a different trial
outcome considering the evidence against him. See Kelley v. United States. No. 1:13-cv-70,
1:08-cr-51.2014 WL 2921821, at *14 (E.D. Tenn. June 27, 2014) (holding that petitioner's
unsupported claims of what counsel failed to do. without any evidence of what a more
thorough investigation would have revealed, was insufficient to demonstrate by a
preponderance of the evidence that counsel performed deficiently; moreover, even
assuming that counsel performed deficiently, petitioner failed to establish a reasonable
probability, that had counsel conducted a more extension investigation, the outcome of
Petitioner's case would have been different). Furthermore, Petitioner does not provide any
specifics as to, had he chosen to testify in his own defense, what his trial testimony would
have been. The Sixth Circuit has instructed that when "one is left with pure speculation on
whether the outcome of [the criminal proceeding] could have been any different, [there is] an
insufficient basis for a successful claim of prejudice.” Baze v. Parker. 371, F.3d 310, 322 (6th
Cir 2004), cert, denied. 544 U.S 931 (2005).
'17 As to Petitioner's allegations of ineffective assistance based on counsel's pre-trial
investigation and preparation, the Court finds that Petitioner has not shown he is entitled to
relief because the state appellate court’s determinations were not contrary to Strickland.
Neither were they based on an unreasonable application of the facts or an unreasonable
application of Strickland's standard to those facts. Thus, Petitioner is not entitled to relief on
those claims.
2. During Trial
Petitioner also claims that trial counsel provided ineffective assistance of counsel during
Petitioner's second trial In particular, Petitioner alleges that trial counsel (1) failed to call
Clifford Parish to testify; (2) failed to properly cross-examine Deborah Cox; (3) failed to
object to Detective Corey Wall's alleged hearsay statements; and (4) failed to call Lashona
Wooten to testify. (Doc. No. 1 at PagelD #9, 11). According to Respondent, the state court s
rejection of Petitioner's claims that he was denied effective assistance of counsel was not
contrary to, or an unreasonable application of Strickland, or based on an unreasonable
determination of the facts in light of the evidence before the state court. (Doc. No. 11 at
PagelD# 16).
a. Failure to call Clifford Parrish to testify
First, Petitioner alleges that trial counsel was ineffective in failing to call Clifford Parrish to
testify at trial. (Doc. No. 1 at PagelD# 18). According to Petitioner, Mr. Parrish “would have

i.

>

testified that Stephanie Littlejohn confessed to him that she committed the murder for which
Petitioner was charged." (Id..)
In his post-conviction petition, Petitioner argued that trial counsel had provided ineffective
assistance by failing to locate Mr. Parrish as a witness. (Doc. No. 9. Attach. 11 at PagelD#
819). Petitioner posited that Mr. Parrish would have been a beneficial defense witness
because he could testify that Ms. Littlejohn had confessed to murdering Thomas Turner.
Mr. Parrish testified at Petitioner's post-conviction hearing that he had known Petitioner for
over thirty years (jd. at 877) and that Ms. Littlejohn had told him that she had committed the
murder, not Petitioner. (Doc. No. 9. Attach. 12 at PagelD# 880). Mr. Parrish testified that he
was unaware Petitioner had been tried twice and stated on direct examination that he had
not relayed Ms. Littlejohn’s confession to the police or defense counsel. (Id. at 881-82). On
cross-examination, Mr. Parrish indicated it was possible he was confused about the time
frame when he conveyed Ms. Littlejohn's statement to Petitioner's aunt. (jd. at 882-83).
Trial counsel testified at Petitioner's post-conviction evidentiary hearing that he and
Petitioner had discussed the witnesses he wanted to call and that Petitioner did not mention
Mr. Parrish. In fact, counsel testified that he had never heard of Mr. Parrish. (Id- at PagelD#
925). The post-conviction court denied relief, accrediting counsel's testimony that he had
never heard of Mr. Parrish as a potential witness. (Doc. No. 9, Attach. 11 at PagelD# 852).
Petitioner raised this claim on appeal of the denial of his post-conviction petition. The
Tennessee Court of Criminal Appeals affirmed the denial of relief, agreeing with the post­
conviction court that trial counsel "was a very experienced trial attorney who conducted a
thorough investigation of the facts, reviewed the record from the first trial, and
communicated with the petitioner about the facts, defense theories, and the pros andcons of
testifying in his own defense." Watkins. 2017 WL 1048130. at *6. The Tennessee Court of
Criminal Appeals applied Strickland and affirmed, concluding that the evidence in the record
supported the post-conviction court's conclusion that trial counsel’s performance was not
deficient or prejudicial, jd at *8.
'18 The state courts' findings were not unreasonable. Trial counsel testified at Petitioner’s
post-conviction evidentiary hearing that he had never heard of Mr. Parrish. This Court must
defer to the state court's credibility determinations of witnesses whose demeanor has been
observed by that court, unless Petitioner demonstrates the state credibility determinations
are not supported by the record. See Rice v. Collins. 546 U.S. 333, 339 (2006) (“Reasonable
mind reviewing the record might disagree about the prosecutor's credibility, but on habeas
review that does not suffice to supersede the trial court's credibility determinations’); Bennett
v. Mills. No. 1.06-CV-254. 2007 WL 2823324, at *6 (E.D. Tenn. Sept. 27. 2007) (in
determining whether the petitioner had submitted credible new evidence of actual
innocence, deferring to the state court's credibility determinations).
Neither has Petitioner shown prejudice resulting from trial counsel's failure to offer Mr.

,

Parrish's testimony. The record reflects that Mr. Parrish had some credibility issues. In
addition, Mr. Parrish's testimony regarding Ms. Littlejohn's confession would have been
cumulative to the testimony of Deborah Cox, who testified that Ms. Littlejohn confessed to
her that Ms. Littlejohn—not Petitioner-killed the victim. (Doc. No. 9, Attach. 3 at PagelD#
460). No prejudice accrues to a petitioner when an attorney fails to offer cumulative
evidence. See Beuke v Houk. 537 F.3d 618, 645 (6th Cir. 2008) ("A petitioner does not
establish prejudice if he shows only that his counsel failed to present ‘cumulative’ mitigation
evidence, that is, evidence already presented to the jury.”); Alien v Howes. 438 F. App'x 432,
435 (6th Cir. Aug. 25, 2011) (counsel's failure to present cumulative testimony does not
result in prejudice).
Accordingly, the Court finds that the state court's decision was based on a reasonable
determination of the facts and that the state court’s application of the Strickland factors was
reasonable. Petitioner therefore is not entitled to relief on the basis of this claim.
b. Failure to effectively cross-examine Deborah Cox
Next. Petitioner alleges that trial counsel failed to effectively cross-examine Deborah Cox. a
defense witness. Specifically. Petitioner alleges that trial counsel should have pointed out
“discrepancies in her testimony between the first and second trialjs].” (Doc. No. 1 at
PagelD# 11).
The petitioner raised this claim in his petition for post-conviction relief. (Doc. No. 9, Attach.
11 at PagelD# 819). He argued that trial counsel should have brought to light discrepancies
in Ms. Cox's testimony between the first and second trials, (jd-) During Petitioner's post-

i.

■>

conviction hearing, counsel testified that he would have liked "a little more latitude
in. ..developing Ms. Cox's testimony' but was limited by the trial court's rulings. (Id. at
PagelD# 937). On appeal of the denial of post-conviction relief, the Tennessee Court of
Criminal Appeals deferred to the post-conviction court's accreditation of counsel's testimony
that he developed her testimony to the best of his ability given the trial court's rulings and
found that counsel had not provided ineffective assistance in this regard. Watkins 2017 WL
1048130, at *5.
The state courts' findings were not unreasonable. Cross-examination is the “principal means
by which the believability of a witness and the truth of [her] testimony are tested." Davis v.
Alaska. 415 U.S. 308. 316 (1974). “Though a failure properly to cross-examine a witness
could form the basis for a finding of ineffective assistance, Jackson v. Houk. 687 F.3d 723,
742-43 (5th Cir, 2012), typically, a decision as to 'whether to engage in cross-examination,
and if so to what extent and in what manner, [is]...strategic in nature.'" Miller v. Howerton.
No. 1:12-cv-50-HSM-WBC. 2015 WL 796310. at *11 (E.D. Tenn. Feb. 25. 2015) (quoting
United States v. Nersesian. 824 F.2d 1294, 1321 (2d Cir, 1987)); see Hodge v. Haeberlin.
579 F.3d 627 641 (6th Cir. 2009) (citing Cobb v. Perini. 832 F.2d 342, 347-48 (6th Cir.
1987}) (decisions regarding how to examine or cross-examine a witness are strategic).
Impeachment strategy is a matter of trial tactics, and tactical decisions are not ineffective
assistance of counsel because in retrospect better tactics might have been available.
Johnson v. Hofbauer. 159 F. Supp.2d 582, 607 (E.D. Mich. 2001).
*19 Counsel's performance did not constitute ineffective assistance of counsel. The record
shows that trial counsel questioned Ms. Cox, who was his own witnesses, and testified that
he would have liked to have asked more questions of her but was limited by the trial court's
rulings. And, even if Petitioner could show deficient performance as required by the first
prong of the Strickland test, he cannot establish the necessary prejudice required by the
second prong. Petitioner’s claims related to these tactical matters simply do not support a
claim of ineffective assistance of counsel.
The Court finds that the state court's determination was not contrary to Strickland. Neither
was the court's ineffective assistance determination based on an unreasonable
determination of the facts or an unreasonable application of Strickland’s standards to those
facts. Thus, Petitioner is not entitled to relief on this claim.
c. Failure to object to the testimony of Detective Wall
Petitioner alleges that trial counsel was ineffective by failing to object to the testimony of
Detective Wall. Petitioner claims Detective Wall gave hearsay testimony during the trial
which “gave the impression to the jury that these witnesses had information that incriminated
petitioner and that this hearsay improperly bolstered their testimony at trial.” (Doc. No. 1 at
PagelD# 9).
Petitioner raised this claim in his petition for post-conviction relief. (Doc. No. 9, Attach. 11 at
PagelD# 819-20). He alleged that trial counsel failed to object to hearsay testimony by
Detective Wall as follows;

Specifically, Detective Wall testified to what Stevie Downs told him, which led
to his contacting another person, Chaz Ellis. Detective Wall then testified as
to what Mr. Ellis told him, specifically that he should contact Stephanie
Littlejohn and Brianna Stanton. Detective Wall then testified, without
objection by trial counsel, to what Ms. Littlejohn told him.

(id.) Similar to his current argument. Petitioner asserted that the substance of these multiple
hearsay statements "gave the impression to the jury that these witnesses had information
that incriminated Petitioner, and that this hearsay improperly bolstered their testimony at
trial” and, "had this hearsay not been admitted, he would not have been convicted and the
result of his case would have been different.” (Id. at 820).
Petitioner testified at his post-conviction evidentiary hearing that trial counsel allowed
hearsay through witnesses which created a negative inference that Petitioner had
confessed. (Doc. No. 9. Attach. 12 at PagelD# 908-09). The record does not provide any
explanation as to why defense counsel did not object to this testimony and Petitioner failed
to question defense counsel about this issue during the post-conviction hearing.
The post-conviction court denied relief, noting from its review of the trial transcript that “[tjhe
majority of the testimony concerned how Detective Wall found individuals'] names in the

:1.

deceased’s phone and went to speak to each one who directed him to the next individual"
(Doc. No. 9, Attach. 11 at PagelD# 856-57). The court further noted that the detective gave
“general'’ testimony and did not testify as to what each defendant told him, but instead as to
what he actions he took based on what each individual said. (id. at PagelD# 857). The court,
therefore, concluded that there was “no evidentiary error" in Detective Wall's testimony and
that Petitioner had not established by clear and convincing evidence that trial counsel was
ineffective or that Petitioner was prejudiced by the alleged deficiency. (Id.)
*20 On direct appeal of the denial of post-conviction relief on this claim, the Tennessee Court
of Criminal Appeals affirmed, finding that “[t]he record fully supports the findings and
conclusions of the post-conviction court.” Watkins. 2017 WL 1048130, at *6.
The state courts' findings were not unreasonable. The jury heard directly from nearly all of
the witnesses who were mentioned by Detective Hall in his testimony. Petitioner has not
established that, had counsel objected to Detective Hall’s testimony, the court would have
granted the objection. Neither has Petitioner established that, even if counsel was deficient
in failing to object to Detective Hall's testimony, Petitioner was prejudiced and that the
outcome would have been different in light of the overwhelming evidence against Petitioner.
The Court finds that the state court's determination was not contrary to Strickland. Neither
was the court's ineffective assistance determination based on an unreasonable
determination of the facts or an unreasonable application of Strickland's standards to those
facts. Thus, Petitioner is not entitled to relief on this claim.
d. Failure to call Lashona Wooten to testify
In his final claim of ineffective assistance of trial counsel, Petitioner argues that counsel
failed to call Lashona Wooten, who testified at Petitioner's first trial. (Doc. No. 1 at PagelD#
9). Petitioner believes that "she could [have] identified] an unidentified person” and "would
have raised a doubt as to Petitioner's presence at the location where the victim was killed.''

(Id.).
Petitioner challenged the effectiveness of his trial counsel on this same ground during his
state post-conviction proceedings. (Doc. No. 9, Attach. 11 at PagelD# 85). He argued that
Ms. Wooten would have testified that she did not see Petitioner at the scene of the crime
and instead saw “another individual she could identify and an unidentified person." Watkins
2017 WL 1048130, at *2. In denying relief, the post-conviction court found that trial counsel
made a strategic decision not to call Ms. Wooten at the second trial and Petitioner had not
established by clear and convincing evidence that trial counsel was ineffective or that
Petitioner was prejudiced by the alleged deficiency. The post-conviction court therefore
denied relief. (Doc. No. 9, Attach. 11 at PagelD# 88-89).
On appeal of the denial of post-conviction relief, the Tennessee Court of Criminal Appeals
affirmed, agreeing with the post-conviction court that trial counsel had made a strategic
decision not to call Ms. Wooten based on her demeanor and attitude on the day of the trial.
Watkins 2017 WL 1048130. at *6. The court found that trial counsel "offered a reasonable
explanation for why he did not call Ms. Wooten as a witness' and thai Petitioner had not met
his burden of demonstrating any deficiencies in counsel s performance or any resulting
prejudice to his case. Id
The state courts' findings were not unreasonable. Counsel testified at Petitioner’s post­
conviction evidentiary hearing that he was aware of Ms. Wooten’s testimony during
Petitioner's first trial. After interviewing her, he “had...chills" based on her demeanor and
body language and determined believed she would not “be anything but a liability for the
Petitioner if she were to testify.” (Doc. No. 9, Attach. 12 at PagelD# 927). Counsel therefore
decided not to call her as a witness.
*21 With respect to trial counsel's strategic decision not to call Ms. Wooten as a witness, it is
a “longstanding and sound principle that matters of trial strategy are left to counsel’s
discretion.” Dixon v Houk. 737 F.3d 1003, 1012 (6th Cir. 2013). In order to fairly assess an
attorney's performance, "every effort [must] be made to eliminate the distorting effects of
hindsight, to reconstruct the circumstances of counsel's challenged conduct, and to evaluate
the conduct from counsel's perspective at that time." Strickland. 466 U S. at 689. “[Strategic
choices made after a thorough investigation of the law and facts relevant to plausible options
are virtually unchallengeable." Id at 690. Counsel made an informed, strategic decision not
to call Ms. Wooten because he believed her testimony would have been detrimental to
Petitioner's defense. This decision was not outside of the professional norms for criminal
defense attorneys.

>

Even if Petitioner could establish that counsel's failure to call Ms. Wooten as a witness was
deficient, he cannot establish that he was prejudiced by it and that the outcome would have
been different in light of the overwhelming evidence against Petitioner. Consequently, the
Court finds that Petitioner has not shown that he is entitled to relief on this claim because the
appellate court's determination was not contrary to Strickland. Neither was the appellate
court's determination based on an unreasonable determination of the facts or an
unreasonable application of Strickland's standards to those facts. This claim, like the others, ,
will be dismissed.
V. Conclusion
For the reasons set forth herein, the petition filed by Cedric Watkins seeking relief under
Section 2254 will be denied, and this action will be dismissed with prejudice.
Federal Rule of Appellate Procedure 22 provides that an appeal of the denial of a habeas
petition may not proceed unless a certificate of appealability (COA) is issued under 28
U.S.C § 2253. Rule 11 of the Rules Governing § 2254 Cases requires that a district court
issue or deny a COA when it enters a final order. A COA may issue "only if the applicant has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “A
petitioner satisfies this standard by demonstrating that jurists of reason could disagree with
the district court's resolution of his constitutional claims or that jurists could conclude the
issues presented are adequate to deserve encouragement to proceed further.” Miller-El. 537
U.S. at 327. The district court must either issue a COA indicating which issues satisfy the
required showing or provide reasons why such a certificate should not issue. 28 U.S.C. §
2253(c)(3); Fed. R. App. P 22(b).
Because jurists of reason would not disagree with the resolution of Petitioner's claims, the
Court will deny a COA.
An appropriate Order will be entered
All Citations
Slip Copy, 2019 WL 4038338
Footnotes
1

Under the ''prison mailbox rule" of Houston v. Lack. 487 U.S. 266, 270 (1988),
and the Sixth Circuit's subsequent extension of that rule in Richard v. Rav. 290
F 3d 810, 812 (6th Cir. 2002) and Scott v. Evans. 116 F. App'x 699, 701 (6th
Cir. 2004), a prisoner's legal mail is considered "filed" when he deposits his
mail in the prison mail system to be forwarded to the Clerk of Court. Here,
Plaintiff signed and dated his petition on September 25, 2017, although the
Clerk's Office did not receive and file the complaint until September 29, 2017.
Under the prison mailbox rule, the Court considers September 25, 2017, as
the date of filing.

End of
Document

WestlawNext. M 2020 Thomson Reuters

O 2020 Thomson Reuters Mo claim to original U.S. Governmsni Works

Thomson Reuters Privacy Poiicy

j..
tuomsoo nurn.as
Thomson Reuieis Ts-hoTfnc-siding lego! advice

*!

r>‘

APPENDIX C

*

&

WESTLAW
Watkins v. State
Court of Criminal Appeals of Tennessee, AT NASHVILLE. . March 20,2017

SlipCopy

2017 WL 1043130 (Approx. 5 pages)

2017 VV1, 1048130
Only the Westlaw citation U currently available.
SEE RULE .19 OF THE RULES OF THE COURT OF CRIMINAL APPEALS RELATING TO
PUBLICATION OF OPINIONS AND CITATION OF UNPUBLISHED OPINIONS.
Court of Criminal Appeals of Tennessee.
at Nashville:.

Cedric WATKINS
v.
STATE of Tennessee
No. M2016—0068J-CCA-R3-PC
Assigned on Briefs Novembers, 2016
Filed 03/20/2017
*
Application for Permission to Appeal Denied by Supreme Court May 18, 2017
Appeal from the Criminal Court for Davidson County, No. 2011-A-663 Cheryl
Blackburn, Judge
Attorneys and Law Firms
David M. Hopkins, Murfreesboro. Tennessee, for the appellant, Cedric Watkins.
Herbert H. Slatery III, Attorney General and Reporter; Jeffrey D. Zentner, Assistant Attorney
General; Glenn R. Funk, District Attorney General; and Megan M. King, Assistant District
Attorney General, for the appellee. State of Tennessee.
Alan E. Glenn, J., delivered the opinion of the court, in which Thomas T, Woodall, P.J., and
Robert W, Wedemeyer, J., joined.
OPINION
Alan E. Glenn, J.
The petitioner. Cedric Watkins, appeals the denial of his petition for post-conviction relief
from his first degree premeditated murder conviction, arguing that the post-conviction court
erred in finding that he received effective assistance of trial counsel. Following our review,
we affirm the denial of the petition.
FACTS
‘1 in 2013. the petitioner was convicted of the first degree premeditated murder of Thomas
Turner and sentenced to life imprisonment. Our direct appeal opinion reveals that the
conviction stemmed from the petitioner's having shot the victim, who had bought drugs from
him, in the belief that the victim was a “snitch" who might have been responsible for the
arrest of two of the petitioner's associates. State v. Cedric Wavne Watkins. No, M201301268-CCA-R3-CD. 2014 WL 2547710, at ’1-3 (Tenn. Crim. App. June 4, 2014). Among
the State's witnesses at trial was the petitioner's associate. William Carter, who testified that
after he let the petitioner out of his vehicle at the victim's hotel, the petitioner came running
back to his car carrying a laptop computer, got back inside, and said, ‘[T]wo shots to the
head[;] he ain't talking no more." Id at ’3 {internal quotation marks omitted).
Other State witnesses included Brianna Stanton and Stephanie Littlejohn, who each heard
the petitioner make incriminating statements about the killing. Among other things, Ms.
Littlejohn testified that the petitioner “told her that he had shot the victim three times." Jd. at
*2. Ms. Stanton testified that several days before she learned about the victim's death, the
petitioner went somewhere with Mr. Carter and then returned to their hotel room where he
“said that they ‘were all supposed to take it to-the grave.'" Id at *1. Ms, Stanton agreed she
had testified at an earlier court hearing that the petitioner “said something 'along the lines of
[ ] they had to do what they had to do to somebody who was snitching'" before making the
statement about taking the information to their graves. Id The State also introduced
recorded jail telephone calls between the petitioner and Ms. Stanton in which the petitioner

*

»'

“told Ms. Stanton to 'stick to the script’ and said that they would fight this s*** to the end.' ”
!d at *2.
The petitioner presented as a witness in his behalf a woman named Deborah Cox, who
testified that Ms. Littlejohn told her that she had shot the victim and that the gun she had
used would never be found. Id at *4.
On January 20. 2015, the petitioner filed a pro se petition for post-conviction relief in which
he raised a number of claims, including ineffective assistance of counsel. Following the
appointment of post-conviction counsel, he filed an amended petition in which he alleged
that trial counsel was ineffective for failing to adequately investigate the case or consult with
the petitioner, failing to effectively cross-examine Ms. Cox on inconsistencies in her trial
testimonies, not objecting to hearsay testimony from a police detective, and failing to call
Clifford Parrish and Lashona Wooten as defense witnesses The petitioner alleged that Mr.
Parrish would have testified that Ms. Littlejohn confessed to him that she killed the victim.
The petitioner alleged that Ms. Wooten, who testified at his first trial that resulted in a hung
jury, would have testified that she did not see the petitioner at the scene of the crime, but
instead “another individual she could identify and an unidentified person." Finally, the
petitioner sMsQsd thst eppeilsts counsel wes ineffective for fsiling to file 3 timely Rule 11
application for permission to appeal.
*2 At the evidentiary hearing, appellate counsel testified that she intended to file a Rule 11
application in the petitioner's case but got his case confused with another client's and
overlooked it.
Clifford Parrish, a long-time boyfriend of the petitioner's aunt, testified that Stephanie
Littlejohn told him that she had committed the murder. He said he did not impart that
information to the petitioner's defense team because he thought Ms. Littlejohn would take
the initiative and tell them herself. On cross-examination, he testified he later told the
petitioner's aunt about Ms. Littlejohn's confession. He was unsure, however, of when he
divulged the information, testifying that it could have possibly been during the first or the
second trial.
Lashona Smith,1 previously known by the married name of Lashona Wooten, testified that
she gave testimony at the petitioner's first trial about having seen William Carter driving
away from the hotel with a passenger in his vehicle on the day the victim was killed, but she
was unable to see who the passenger was. She stated that she was subpoenaed as a
witness at the petitioner's second trial, but. although the petitioner's trial counsel spoke to
her outside the courtroom, she was never called to testify.
Deborah Cox testified that she testified at both of the petitioner's trials She said that both
trial counsel and his investigator interviewed her and that she was asked at the second trial
about Ms. Littlejohn's statement that she had killed the victim and disposed of the gun.
The petitioner testified that his first trial ended in a mistrial after the jury was unable to reach
a verdict. He said his family retained a different attorney for his second trial and trial counsel
began representing him only twenty-one days before the second trial began. He claimed trial
counsel visited him only two times before trial, in visits that lasted thirty minutes or less.
According to the petitioner, trial counsel never prepared him for testifying and never even
discussed before trial whether or not he would testify. He said he consequently felt
unprepared to testify, which is why he opted not to take the stand in his own defense. Had
he been prepared and testified, he would have told the jury that he did not kill the victim.
The petitioner also complained about trial counsel's failure to call Ms. Wooten and Mr.
Parrish as witnesses and his failure to effectively impeach Ms. Cox's testimony with her
testimony from the first trial. He said he wanted trial counsel to call Ms. Wooten as a witness
at his second trial because she had testified at his first trial, which resulted in a hung jury,
and he believed her testimony would have made a difference in his second trial. He said
counsel never explained to him why he failed to call her as a witness.
The petitioner testified he had no knowledge before either of his trials about the information
Mr. Parrish provided at the evidentiary hearing, but also no knowledge of what kind, if any,
investigation trial counsel conducted or if counsel could have discovered Mr. Parrish as a
potential witness. As for Ms. Cox. he believed that counsel should have impeached her
testimony at his second trial with her testimony from the first trial. He explained that in the
first trial, Ms. Cox simply testified that Ms. Littlejohn told her that she had committed the
crime, while in the second she testified that Ms. Littlejohn told her that she had shot the

*•

victim in the back of the head. The petitioner said he thought trial counsel should have asked
Ms. Cox to read from her previous trial testimony to show the jury the discrepancies in her
accounts.
*3 The petitioner also complained that trial counsel failed to object to hearsay testimony by
Detective Corey Wall about having been told by Chaz Ellis to speak to Ms. Littlejohn about
the crime. Lastly, he claimed that trial counsel fell asleep during his trial, testifying that
counsel was "supposed to have been taking notes," but his paper fell to the floor twice while
he was sitting at the defense table.
On cross-examination, the petitioner denied that his family retained trial counsel shortly
before his second trial because he was not getting along with his former counsel. Instead, he
claimed that trial counsel "showed up alleging that he was his attorney' and when he called
his family to inquire, they told him that they had hired him. The petitioner acknowledged that
his first jury had voted 11 to 1 to convict him. Because his first trial ended in a hung jury, he
thought trial counsel should have “followjed] the same platform [of the first trial] instead of
subtracting from what ha[d] already been laid out as a foundation." He said he told trial
counsel that his words of “stick to the script" meant to tell the truth and that counsel told him
he would find someone from the African-American community to testify to that effect. The
petitioner disagreed that Ms. Wooten's testimony that someone else was in the car with Mr.
Carter helped the State's case. On redirect examination, he reiterated his belief that Ms.
Cox's testimony from the first trial that she was unable to see who was in the car with Mr.
Carter helped his defense in the first trial.
Trial counsel, called as a witness by the State, testified that he had been licensed to practice
law for approximately thirty-nine years. He said he was contacted by the petitioner's aunt
and other family members who indicated that the petitioner's relationship with his former
■ counsel was "strained" and asked him to take over the case. During his appearance notice,
. three weeks before the scheduled trial, the trial court addressed the fact that the trial had
been set for a number of months and could not be reset. Trial counsel stated that he thought
. his taking on the case was what the petitioner needed and "a positive situation" due to the
petitioner's strained relationship with his former counsel. Former counsel was very
cooperative, furnishing him with “everything he had," and trial counsel devoted all of his time
from the date he was retained until trial in preparing for the case
• Trial counsel testified that he met with the petitioner three different times, for a total of over
three hours, in his preparation for the case. He characterized their meetings as "very
productive,” testifying that he and the petitioner communicated well and reviewed together
. the first trial transcript “line by line." Among other things, he and the petitioner discussed the
State's evidence against the petitioner, potential witnesses and theories of defense, and
which factors in the first trial had not been favorable to the petitioner. The petitioner was very
interested in having Ms. Littlejohn and Ms. Cox as witnesses, but he never mentioned Mr.
Parrish. Trial counsel said he also “zeroed in" on the petitioner's "stick to the script”
statement, spending "the better part" of one or two days trying through his connection with
the "Nashville Inner City Ministry" to find someone to testify that in the African-American
community the words could be interpreted as “tell the truth as opposed to say what we had
planned to say." He could not. however, “find anyone that would agree that they could do
that in good conscience."
*4 Trial counsel testified that he considered calling Ms. Wooten as a witness at the second
trial. However, after talking with her, he “had ... chills” based on the way she expressed
herself and therefore believed that she would not “be anything but a possible liability" for the
petitioner if she testified. He said he spoke with Ms. Cox twice before trial, provided her with
gas money to travel to the trial from her home in Kentucky, and called her as witness. He
repeated that the petitioner never mentioned Mr. Parrish at all.
\

Trial counsel further testified that he had extensive conversations with the petitioner about
the pros and cons of testifying in his own defense and that it was the petitioner's ultimate
decision. In addition, the trial court conducted a “very, very thorough examination" with the
petitioner about his decision not to take the stand.
On cross-examination, trial counsel testified he had never tried a first degree murder case
with only three weeks of preparation. He said he met with the petitioner either the same day
that the petitioner's aunt retained him, or the following day. He also informed the petitioner,
upon assumption of the case, “that it was [his] understanding that the Court would not grant
a continuance because [he] came into the case." Trial counsel testified that he "would have
liked a little more latitude in ... developing Ms. Cox's testimony." but he was limited by the

t.

*

trial court's rulings. Trial counsel reiterated that Ms. Wooten's demeanor and body language
on the day of the trial led him to believe, based on his years of experience, that she would
be a liability if he called her as a witness Finally, trial counsel categorically denied that he at
any point fell asleep during the trial.
The petitioner's aunt, Janice Gordon, called as a rebuttal witness by the petitioner, testified
that she noticed trial counsel drop his head and start to "drift off" at least three times during
the trial. On cross-examination, Ms. Gordon testified that the petitioner was in agreement
with the family's decision to hire trial counsel to replace the petitioner's original counsel,
whom they believed was not representing the petitioner well.
On April 4, 2016, the post-conviction court entered an order denying the petition for post­
conviction relief based on the allegations of ineffective assistance of trial counsel. The court,
however, granted the petitioner a delayed appeal to the supreme court due to appellate
counsel's failure to file a Rule 11 application for permission to appeal. That same day, the
petitioner filed a timely notice of appeal to this court in which he challenged the post­
conviction court's finding that he received effective assistance of trial counsel.
ANALYSIS
The petitioner argues on appeal that trial counsel was deficient, thereby prejudicing the
outcome of his case, for the following: not adequately investigating the case; not preparing
the petitioner to testify so that he could explain the damaging “stick to the script" statement;
not locating Mr. Parrish as a witness; failing to elicit from Ms. Cox that her statement that the
victim was shot in the back of the head, which conflicted with the medical examiner's report,
was only Ms. Cox's opinion; not calling Ms. Wooten to testify; failing to object to hearsay
testimony by Detective Wall; and falling asleep during the trial. The State responds by
arguing that the evidence does not preponderate against the findings and conclusions of the
post-conviction court that the petitioner received effective assistance of trial counsel We
agree with the State.
*5 The post-conviction petitioner bears the burden of proving his allegations by clear and
convincing evidence. See Tenn. Code Ann. § 40—30—110(f). When an evidentiary hearing is
held in the post-conviction setting, the findings of fact made by the court are conclusive on
appeal unless the evidence preponderates against them. See Tidwell v. State 922 S.W.2d
497, 500 (Tenn. 1996). Where appellate review involves purely factual issues, the appellate
court should not reweigh or reevaluate the evidence. See Henley v State. 960 S.W.2d 572.
578 (Tenn. 1997). However, review of a trial court's application of the law to the facts of the
case is de novo, with no presumption of correctness. See Ruff v. State. 978 S.W 2d 95. 96
(Tenn. 1998). The issue of ineffective assistance of counsel, which presents mixed questions
of fact and law, is reviewed de novo, with a presumption of correctness given only to the
post-conviction court's findings of fact See Fields v. State. 40 S.W.3d 450, 458 (Tenn 2001);
State v. Burns. 6 S.W.3d 453, 461 (Tenn. 1999).
To establish a claim of ineffective assistance of counsel, the petitioner has the burden to
show both that trial counsel's performance was deficient and that counsel's deficient
performance prejudiced the outcome of the proceeding. Strickland v. Washington. 466 U S
668, 687 (1984); see State v. Taylor, 968 S.W.2d 900, 905 (Tenn. Crim. App, 1997) (noting
that same standard for determining ineffective assistance of counsel that is applied in federal
cases also applies in Tennessee). The Strickland standard is a two-prong test:

First, the defendant must show that counsel's performance was deficient.
This requires showing that counsel made errors so serious that counsel was
not functioning as the ''counsel'' guaranteed the defendant by the Sixth
Amendment. Second, the defendant must show that the deficient
performance prejudiced the defense. This requires showing that counsel's
errors were so serious as to deprive the defendant of a fair trial, a trial whose
result is reliable.

466 U.S. at 687.
The deficient performance prong of the test is satisfied by showing that “counsel’s acts or
omissions were so serious as to fall below an objective standard of reasonableness under
prevailing professional norms." Goad v. State. 938 S.W.2d 363, 369 (Tenn. 1996) (citing
Strickland 466 U.S. at 688; Baxter v. Rose. 523 S.W.2d 930, 936 (Tenn. 1975)) The
reviewing court must indulge a strong presumption that the conduct of counsel falls within

3

the range of reasonable professional assistance, see Strickland. 466 U.S. at 690, and may
not second-guess the tactical and strategic choices made by trial counsel unless those
choices were uninformed because of inadequate preparation. See Hellard v. State. 629
S.W,2d 4, 9 (Tenn. 1982). The prejudice prong of the test is satisfied by showing a
reasonable probability, i.e., a "probability sufficient to undermine confidence in the outcome."
that "but for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Strickland. 466 U.S at 694.
Courts need not approach the Strickland test in a specific order or even "address both
components of the inquiry if the defendant makes an insufficient showing on one." 466 U.S.
at 697; see also Goad. 938 S.W.2d at 370 (stating that “failure to prove either deficiency or
prejudice provides a sufficient basis to deny relief on the ineffective assistance claim").
The post-conviction court addressed each of the petitioner's allegations in its lengthy and
detailed order denying relief. Among other things, the court specifically accredited the
testimony of trial counsel over that of the petitioner, finding that trial counsel conducted a
thorough investigation, adequately met with the petitioner to review the previous trial
transcript and the facts of the case, and effectively communicated with the petitioner about
the case, including his options regarding testifying at trial. The court also accredited trial
counsel's testimony that he never heard of Mr. Parrish as a potential witness, that he made a
strategic decision not to call Ms. Wooten based on her demeanor and attitude on the day of
the trial, and that he developed Ms. Cox's testimony to the best of his ability, given the trial
court's rulings.
*6 With respect to the petitioner's claim that trial counsel was ineffective for failing to object
to hearsay testimony by the police detective, the post-conviction court noted from its review
of the trial transcript that “[t]he majority of the testimony concerned how Detective Wall found
individual [s'] names in the deceased's phone and went to speak to each one who directed
him to the next individual.” The court further noted that the detective, whose testimony was
“general," did not testify as to what each individual told him, but instead what actions he took
based on what each individual said. The court, therefore, concluded that there was “no
evidentiary error” in the testimony.
The record fully supports the findings and conclusions of the post-conviction court. Trial
counsel was a very experienced trial attorney who conducted a thorough investigation of the
facts, reviewed the record from the first trial, and communicated with the petitioner about the
facts, defense theories, and the pros and cons of testifying in his own defense. Trial counsel
offered a reasonable explanation for why he did not call Ms. Wooten as a witness and how
he was limited in his examination of Ms. Cox by the trial court's evidentiary rulings. In sum,
we agree with the post-conviction court that the petitioner has not met his burden of
demonstrating any deficiencies in counsel's performance or any resulting prejudice to his
case.
CONCLUSION
Based on the foregoing authorities and reasoning, we affirm the judgment of the post­
conviction court denying the petition.
All Citations
Slip Copy. 2017 WL 1048130
Footnotes
1

This witness's first name is spelled phonetically in the transcript as “Lashawna”
but as “Lashona” in the petition for post-conviction relief and in the petitioner's
appellate brief.

End of
Document

WeslIawNext. •© 2020 Thomson Reuters

© 2020 Thomson Reuters. No'daim to original U.S. Government Works.

Thomson Reuters Privacy Policy

-'•'C.k.l'.nfy fSFyTf fSr:

Thomson Reuters is'ho't'providing legal advice

i

■»

■;*

APPENDIX D

r
«

f-lf

*

WES TLA W
State v. Watkins
Court of Criminal Appeals of Tennessee., at Nashville.

June 4, 2014

Not Reported in S.W.3d

2014 WL 2547710 (Appro*. 6 pages)

2014 WL 2547710
Only the Westlaw citation is currently available.
SEE RULE 19 OK THE RULES OF THE COURT OF CRIMINAL APPEALS RELATING TO
PUBLICATION OF OPINIONS AND CITATION OF UNPUBLISHED OPINIONS.
Court of Criminal Appeals of Tennessee,
at Nashville.

STATE of Tennessee
v.

Cedric Wayne WATKINS.
No. M2013-01268-CCA-R3-CD.
Assigned on Briefs May 13, 2014.
June 4, 20:14.
Application for Permission to Appeal Denied by Supreme Court Aug. 18, 2016.
Appeal from the Criminal Court for Davidson County, NO.2011-A-663; Cheryl Blackburn,
Judge.
Attorneys and Law Firms
Elaine Heard (on appeal), and Edward J. Gross (at trial), Nashville, Tennessee, for the
appellant, Cedric Wayne Watkins.
Robert E. Cooper, Jr., Attorney General and Reporter; Jennifer L. Smith, Deputy Attorney
General; Victor S. Johnson, III, District Attorney General; and Jeff Burks and Megan King,
Assistant District Attorneys General, for the appellee, State of Tennessee.
ROGER A. PAGE, J., delivered the opinion of the court, in which JAMES CURWOOD WITT,
JR., and JOHN EVERETT WILLIAMS, joined.
OPINION
ROGER A. PAGE. J.
*1 Appellant, Cedric Wayne Watkins, was convicted by a jury of first degree premeditated
murder. On appeal, appellant argues that the evidence was insufficient to support his
conviction and that the trial court erred by limiting the testimony of a defense witness.
Following our review, we affirm appellant's judgment but remand to the trial court to consider
whether the judgment requires correction of a clerical error.
I. Facts
Appellant was indicted by a Davidson County grand jury for the premeditated murder of
Thomas Turner, which occurred between July 23, 2009. and July 28, 2009. The parties
presented the following evidence at appellant's March 18-20, 2013 trial.
The victim's brother, Davis Turner, testified that the victim was fifty-two years old when he
died. The victim had been in the Air Force and had worked for various defense industry
firms. Mr. Turner testified that the victim had always had an interest in computers. Mr. Turner
first learned in 1995 that the victim had a drug habit. He said that the victim had been living
at InTown Suites and had owned a white Ford Probe at the time of his death.
William Ogden testified that he was working at InTown Suites on July 28, 2009. When he
was cleaning the parking lot, he smelled a distinct odor and notified his manager that there
was. probably a dead body on the premises. He could not determine from which room the
smell was coming, so he waited for his manager to arrive. Together, they searched several
rooms until they found the victim's body in room 135. Mr. Ogden knew the victim as '‘Bill." Mr.
Ogden testified that he and the manager looked into the room but did not enter it. The
manager, Kevin Moore, also testified and corroborated Mr. Ogden's testimony.
Lynette Mace, a crime scene technician with the Metro Nashville Police Department, testified
that she processed the victim's room along with Sergeant John Nicholson She described
the room as an efficiency apartment. The victim was lying a few feet from the door. A chair

)

r
a

&

9

was turned over, but there were no other signs of disarray. She saw two computers in the
room. Ms. Mace found three spent nine millimeter shell casings and two projectile
fragments. There was a "strike mark" on one wall, and she found a projectile lodged inside
the wall at that location. Ms. Mace processed the room for fingerprints and “DNA touch
evidence." She also used vacuum filters to collect any trace evidence.
Brianna Stanton testified that in 2009, she lived in various hotels with different people and
abused crack cocaine. She said that ''[mjost of the time," she lived with appellant, whom she
knew as “Frank White." Ms. Stanton said that she also lived with Stephanie Littlejohn and
"Hannah." Other acquaintances included William Carter (a/k/a “Will C ”), Bobby Gurley (a/k/a
'B.O. '), and Chaz Ellis (a/k/a "Cuz”). Mr. Carter was a barber and had a car. She was also
acquainted with the victim, whom she knew as “Bill Gates." She recalled an occasion when
the victim bought drugs and wanted to try the drugs before he left, which was unusual
behavior for him. She and appellant later discussed the possibility of the victim's being a
“snitch." Ms. Stanton testified that several days before she learned of the victim's death, Mr.
Carter had driven appellant somewhere. When they returned, appellant, supposing that Ms.
Stanton knew what had happened, said that they “were all supposed to take it to the grave.”
She said that she did not ask any questions. Ms. Stanton learned about the victim's murder
on the news. When his murder was reported, appellant said, “ '[Wjell, there it is.' “ Sometime
later, she heard that Mr. Carter had been "running around talking about" what appellant had
done. Appellant called Mr. Carter to come to their hotel room, and he "asked [Mr. Carter] why
he was running his mouth and smacked him for doing it.” Ms. Stanton agreed that she had
testified in a prior proceeding that appellant said something "along the lines of[ ] they had to
do what they had to do to somebody who was snitching" and that “the four of us in the room
would take it to the grave.”
*2 Ms. Stanton recalled that the first time she talked to detectives about the victim's murder,
she denied any knowledge of what occurred. Detectives talked to her again in December
2010, while she was in jail, and she told them what she knew. Ms. Stanton and appellant
spoke by telephone at least twice while she was in jail, on November 14, 2010, and
December 19. 2010. The State introduced recordings of those telephone conversations into
evidence. In the November conversation, Ms. Stanton mentioned that she "hope[d] that []
everybody does what they said they were going to do," and appellant asked her whether she
had heard from anyone “with a badge." Ms. Stanton testified that they were both referring to
the victim's murder In the December 2010 conversation, appellant told Ms. Stanton to
“[s]tick to the script” and said that they would “fight this s* * * to the end." Ms. Stanton
“guessed" that he was referring to the victim's murder. She agreed that she had previously
testified that "sticking to the script" meant that no one would say anything.
Stephanie Littlejohn testified that in July 2009, she lived in hotel rooms and was engaging in
prostitution and drug sales. She lived with appellant, whom she knew as Frank White. Ms,
Stanton and "Hannah” also lived with her and appellant. Ms. Littlejohn testified that she was
acquainted with Chaz Ellis, Bobby Gurley, William Carter, and the victim. She said that the
victim was called “Bill Gates" because “[h]e was smart[, and] he fixed computers." Ms.
Littlejohn recalled that the victim came to her hotel room on July 23, 2009, to take her to buy
marijuana. When they returned to the hotel room, she gave the victim her laptop so that he
could work on it. After the victim left, the group present at the hotel discussed whether the
victim had “snitch[ed]” on Mr. Gurley and Mr. Ellis because they had been arrested. Ms.
Littlejohn testified that appellant and Mr. Carter left the hotel to visit the victim. She said that
she asked them to pick up her laptop while they were there. She further said that she “had a
feeling" about the purpose of their visit but that “[i]t was kind of one of those things that [was]
left unsaid ”
Ms. Littlejohn testified that appellant and Mr. Carter returned thirty to forty-five minutes later.
She recalled that appellant “was just in tears, and he said the Lord's prayer." Appellant had
her laptop but would not let her have it. Ms. Littlejohn said that she learned about the victim's
murder approximately a week later when it was reported on the news. She did not remember
appellant's saying anything about the murder immediately after it was on the news, but she
testified that at some point appellant told her that he had shot the victim three times. Ms.
Littlejohn also testified that appellant confronted Mr. Carter about Mr. Carter's telling his
girlfriend what had happened the day of the victim's murder. Appellant “smackjed]'' Mr.
Carter and took him Into the bathroom. Ms. Littlejohn remembered Mr. Carter's asking
appellant not to kill him. Ms. Littlejohn testified that she did not talk to the police about the
victim's murder until September 2010. At first, she denied any knowledge but eventually told
the police the information about which she testified at trial.

r

a

>) ; •?

*3 On cross-examination, Ms. Littlejohn clarified that appellant told her on the same day of
the murder that he had shot the victim, not at a later point in time. She also stated that she
did not remember telling Deborah Cox about a statement made by appellant with regard to
the victim's murder
William Carter testified that he was acquainted with appellant, Ms. Littlejohn, and Ms.
Stanton. He also knew Mr. Gurley and Mr. Ellis, but he did not know the victim. He said that
he had heard "the women" talk about the victim and that he knew the victim was a drug user.
Mr. Carter testified that Mr. Gurley and Mr. Ellis were both arrested in 2009 and that he
subsequently heard a rumor that the victim was “snitching." He did not know whether the
victim's alleged "snitching" was related to the arrests of Mr. Gurley and Mr. Ellis. Mr. Carter
testified that on July 23. 2009, appellant called him to cut his hair. He went to the hotel
where appellant was staying. After cutting his hair, appellant asked Mr. Carter to take him
somewhere to pick up something. Mr. Carter did not consider that an unusual request. Mr.
Carter drove appellant to InTown Suites at appellant's direction. When they pulled into the
parking lot. appellant pointed out the car for which he had been looking. Mr. Carter identified
a picture of that car, which had been previously identified as belonging to the victim. Mr.
Carter said that he saw a woman he knew standing on the second or third level of the hotel.
He spoke to the woman, and appellant told him to leave. He drove to the end of the building,
where appellant got out of the car. Mr. Carter said that he turned his car around and then
saw appellant running toward him, carrying a laptop computer. Appellant got into Mr. Carter's
car, and they drove away. Mr. Carter testified that while in the car, appellant said, “ '[T]wo
shots to the head[;j he ain't talking no more.'" Mr. Carter said he did not know what
appellant meant and that he had heard similar phrases "in some rap lyrics." Appellant also
took off his shirt and threw it out of the window of the car. Mr. Carter did not see appellant

\

with a gun that day.
Mr. Carter testified that when the news reported the victim's death, they showed a
photograph of the InTown Suites. Mr. Carter told his girlfriend that he had driven appellant to
that location, but he did not associate that incident with the victim's murder. He testified that
approximately one month later, appellant called him to cut his hair. Mr. Carter went to
appellant's hotel room and cut his hair. Subsequently, appellant punched him in the jaw and
said, “ '[B] ’ * * *, you been [sic] running your mouth about taking me to the room.'" Appellant
also pulled him into the bathroom and told him that "if [he] ever said anything!,] someone
would kill [Mr. Carter] and [his] family." Mr. Carter testified that the following day, he was
arrested for failing to pay his child support obligations. He was incarcerated for five months.
He was arrested on September 20, 2010, for a traffic violation and served five days in jail.
While he was in jail for the traffic violation, Detective Wall came to speak with him about the
victim's murder. He did not admit to knowing anything at that point. In March 2011, Mr. Carter
saw on the news that he was wanted for first degree murder, so he turned himself in to the
police. Detective Wall interviewed him again, and he gave a full statement.
M Dr. Bridget Eutenier. an associate medical examiner in Davidson County, testified that the
victim was shot in the front of his head three times: on his left eyebrow, in front of his left ear,
and below his right eye. Two of the buiiets exited, but one was recovered "from the posterior
scalp .” The victim's body was in a state of decomposition, making it difficult to determine the
trajectory of the bullets. Dr. Eutenier testified that “[a]ll three wounds would have been fatal.”
Dr Eutenier estimated that the victim had died "a few days" prior to his discovery.
Metro Nashville Police Detective Corey Wall testified that he was the lead investigator in this
case. He said that the victim's brother, Davis Turner, provided him with the victim's cellular
telephone number. Subsequently, Detective Wall obtained the victim's telephone records.
The last call that the victim made was on July 23, 2009, at 5:12 p.m. Detective Wall had the
Identification Department compare fingerprints from people with whom the victim had
communicated with the fingerprints lifted from his hotel room. There were no matches. In
addition, no DNA was found in the victim's hotel room other than his own. The computers
from the hotel room were also analyzed but contained no useful information.
Detective Wall testified that he also interviewed persons of interest identified through the
victim's telephone records. In particular, he interviewed Stevie Downs, who suggested that
he speak with Chaz Ellis. Detective Wall first spoke with Mr. Ellis in August 2009, but he
denied any knowledge of the victim's murder. In July 2010. Mr. Ellis's attorney contacted
Detective Wall and told him that Mr. Ellis wished to speak with him. When they met, Mr. Ellis
suggested that Detective Wall talk to Stephanie Littlejohn and Brianna Stanton. Detective
Wall and his partner, Detective Derry Baltimore, spoke with Ms. Littlejohn while she was
incarcerated in September 2010. She was reluctant to divulge any information at first, but

r
ij

*<, #

after they "leaned on” her, she told them about how she knew the victim and that the victim
had been working on her laptop. She also told them about appellant's returning to their hotel
room after having gone out with Mr. Carter. Ms. Littlejohn said that appellant gave her back
her laptop, said a prayer for the victim, and told her that he had "shot the victim three times
in the head." From Ms. Littlejohn's information. Detective Wall attempted to interview William
Carter on September 30. 2010, but he refused to speak with the police. Detective Wall and
Detective Baltimore interviewed Ms. Stanton in December 2010. She gave a statement that
was consistent with Ms. Littlejohn's statement. Subsequently, Mr. Carter and appellant were
both charged with the victim's murder. After Mr. Carter was taken into custody, he gave a
statement that was consistent with Ms Stanton's and Ms. Littlejohn's statements. Thereafter,
appellant was arrested.
Tennessee Bureau of Investigation Agent Alex Brodhag testified as an expert in forensic
firearms examination. He said that the police submitted the following evidence to him for
analysis: a fired bullet core; three fired nine millimeter Luger cartridge cases; a fired jacketed
bullet; a fired bullet core fragment: and a fired hollow point bullet jacket. Agent Brodhag
determined that the three nine millimeter cartridges were fired from the same weapon. He
further determined that the fired bullet core, the fired jacketed bullet, and the fired hollow
point bullet jacket were consistent with nine millimeter bullets. The bullet core fragment was
not useful for comparison purposes. The markings on the jacketed bullet and hollow point
bullet jacket had the “same class characteristics.” but there were not enough markings to
conclude that they were fired from the same weapon. In addition, Agent Brodhag could not
determine whether the fired bullets were originally paired with the three cartridge cases and,
therefore, could not determine how many weapons were used. Following Agent Brodhag's
testimony, the State rested its case
*5 On behalf of appellant, Deborah Cox testified that Stephanie Littlejohn and Brianna
Stanton lived with her for a time after July 2009. Ms. Cox said that Ms. Littlejohn told her, “ 'I
killed Bill Gatesj;] I shot him in the back of the head[.][T]he gun will never be found[;] it’s in
pieces all over this town.' “
After the close of proof and deliberations, the jury found appellant guilty as charged.
Appellant's motion for new trial was unsuccessful. This appeal follows.
II. Analysis
A Sufficiency
Appellant contends that the evidence was insufficient to support his conviction. In particular,
he argues that there was no physical evidence connecting him to the crime scene and that
many of the witnesses were not credible. The State responds that the evidence was
sufficient. We agree with the State.
The standard for appellate review of a claim challenging the sufficiency of the State's
evidence is “whether, after viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the essential elements of the crime
beyond a reasonable doubt." Jackson v. Virginia. 443 U.S. 307, 319, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979) (citing Johnson v. Louisiana. 406 U.S. 356, 362, 92 S.Ct. 1620, 32
L.Ed.2d 152 (1972)); see Tenn. R.App. P. 13(e); State v. Davis. 354 S.W.3d 718. 729
(Tenn.2011). To obtain relief on a claim of insufficient evidence, appellant must demonstrate
that no reasonable trier of fact could have found the essential elements of the offense
beyond a reasonable doubt. See Jackson. 443 U.S. at 319. This standard of review is
identical whether the conviction is predicated on direct or circumstantial evidence, or a
combination of both. State v. Dorantes. 331 S.W.3d 370, 379 (Tenn.2011); State v. Brown.
551 S.W.2d 329. 331 (Tenn.1977).
On appellate review/' 'we afford the prosecution the strongest legitimate view of the
evidence as well as all reasonable and legitimate inferences which may be drawn
therefrom.'" Davis. 354 S.W.3d at 729 (quoting State v. Majors. 318 S.W.3d 850, 857
(Tenn 2010)); State v. Williams. 657 S.W.2d 405, 410 (Tenn. 1983); State v. Cabbage, 571
S.W.2d 832, 835 (Tenn. 1978). In a jury trial, questions involving the credibility of witnesses
and the weight and value to be given the evidence, as well as all factual disputes raised by
the evidence, are resolved by the jury as trier of fact. State v. Bland, 958 S.W.2d 651,659
(Tenn.1997); State v. Pruett, 733 S.W.2d 559, 561 (Tenn.1990). This court presumes that the
jury has afforded the State all reasonable inferences from the evidence and resolved all
conflicts in the testimony in favor of the State; as such, we will not substitute our own
inferences drawn from the evidence for those drawn by the jury, nor will we re-weigh or re­
evaluate the evidence Dorantes. 331 S.W.3d at 379; Cabbage, 571 S W.2d at 835; see

State v. Sheffield. 676 S.W.2d 542. 547 (Term.1984). Because a jury conviction removes the
presumption of innocence that appellant enjoyed at trial and replaces it with one of guilt at
the appellate level, the burden of proof shifts from the State to the convicted appellant, who
must demonstrate to this court that the evidence is insufficient to support the jury's findings.
Davis. 354 S.W3d at 729 (citing State v. Sisk. 343 S.W.3d 60. 65 (Tenn.2011)).
*6 The jury convicted appellant of premeditated murder. Tennessee Code Annotated section
39-13-202(a) defines this category of first degree murder as "[a] premeditated and
intentional killing of another. "

“(Pjremeditation" is an act done after the exercise of reflection and judgment
"Premeditation"' means that the intent to kill must have been formed prior to
the act itself. It is not necessary that the purpose to kill pre-exist in the mind
of the accused for any definite period of time. The mental state of the
accused at the time the accused allegedly decided to kill must be carefully
considered in order to determine whether the accused was sufficiently free
from excitement and passion as to be capable of premeditation.

Id. § 39-13-202(d). In reviewing the sufficiency of the evidence, we must determine whether
the State established the element of premeditation beyond a reasonable doubt. See State v.
Sims. 45 S.W.3d 1.7 (Tenn.2001); State v. Hall. 8 S.W.3d 593. 599 (Tenn.1999). The
presence of premeditation is a question of fact for the jury, and the jury may infer
premeditation from the circumstances surrounding the killing. State v. Young, 196 S.W.3d
85, 108 (Tenn.2006); State v. Suttles. 30 S.W.3d 252, 261 (Tenn.2000); State v. Pike. 978
S.W.2d 904, 914 (Tenn.1998).
A defendant's “state of mind is crucial to the establishment of the elements of the offense,"
thus, the State may prove premeditation by circumstantial evidence. State v. Brown, 836
S.W.2d 530. 541 (Tenn.1992). Several factors support the existence of premeditation
including: “the use of a deadly weapon upon an unarmed victim; the particular cruelty of the
killing; declarations by the defendant of an intent to kill; evidence of procurement of a
weapon; preparations before the killing for concealment of the crime, and calmness
immediately after the killing." Bland. 958 S.W.2d at 660 (citing Brown, 836 S.W,2d at 541—
42; State v. West. 844 S.W.2d 144, 148 (Tenn.1992)).
Viewed in the light most favorable to the State, the evidence showed that appellant,
believing the victim to be a ''snitch,'" went to the victim's hotel room and shot him three times
in the head. Stephanie Littlejohn and Brianna Stanton both testified that appellant was
concerned that the victim had given information to the police about Chaz Ellis and Bobby
Gurley. William Carter testified that he drove appellant to the victim's hotel room. Appellant
left the car briefly, and when he returned, he commented, “ [Tjwo shots to the head [;] he
ain't talking no more.'" Appellant also threw away the shirt he had been wearing. Mr. Carter's
testimony was corroborated in part by Ms. Littlejohn’s testimony. Ms. Littlejohn said that the
victim had her laptop to work on it. She further said that she knew appellant was going to
visit the victim and that she asked him to bring her laptop back when he returned. When
appellant returned to the hotel room, he had her laptop. Ms. Littlejohn also testified that
appellant said a prayer for the victim and told her that he had shot the victim three times in
the head. The medical examiner confirmed that the victim had three gunshot wounds to the
front of his head.
*7 Mr. Carter, Ms. Stanton, and Ms. Littlejohn all testified that appellant threatened Mr. Carter
after learning that Mr. Carter told his girlfriend about taking appellant to the victim's hotel. In
addition, Ms. Stanton testified that the victim's murder was the subject of the telephone
conversations between herself and appellant. Detective Wall testified that Ms. Littlejohn, Ms.
Stanton, and Mr. Carter each gave statements during the investigation that were consistent
with each other. Appellant’s argument regarding the credibility of the witnesses is without
merit. All witnesses were thoroughly cross-examined, and the jury assessed the testimony
and evidence at trial. We will not substitute our own inferences drawn from the evidence for
those drawn by the jury, nor will we re-weigh or re-evaluate the evidence. Dorantes. 331
S.W.3d at 379. Moreover, it was within the purview of the jury to convict appellant based on
the witnesses' testimonies, despite a iack of physical evidence connecting appellant to the
victim's murder. See State v. Jeremy Stevenson. No W2011-02053-CCA-R3-CD, 2013 WL
587313, at * 12-14 (Ten'n.Crim.App. Feb 13. 2013). no perm. app. filed. Thus, we conclude
that the evidence was sufficient to support appellant's conviction for first degree
premeditated murder.

i

*

sm

i

B Limitations on Deborah Cox's Testimony
Appellant argues that the trial court improperly limited the testimony of Deborah Cox
regarding a second statement made to her by Stephanie Littlejohn. The State responds that
appellant did not lay a proper foundation for Ms. Cox's testimony under Tennessee Rule of
Evidence 613(b). While we agree with the State's argument, based on our review of the ■
record, we conclude that appellant waived review of this issue by acquiescing to the trial
court's ruling.
Prior to her in-court testimony, the trial court held a jury-out hearing to determine what Ms
Cox's testimony would be. In addition to the statement she claimed Ms. Littlejohn made
about her shooting the victim. Ms. Cox also said that Ms Littlejohn informed her that she did
not want to be around an unnamed person who knew what she had done to the victim.
According to Ms. Cox, Ms, Littlejohn also described the clothing she wore when she killed
the victim.
Prior to its ruling, the trial court asked how the statements other than Ms. Littlejohn's alleged
confession were admissible. Appellant's counsel responded, "I’m not sure it is[,]“ with no
further argument. Thus, appellant's counsel acquiesced to the trial court's ruling that only the
first part of Ms. Cox's testimony was admissible. Therefore, appellant has waived plenary
review of this issue. See Tenn R.App. P. 36(a) ("Nothing in this rule shall be construed as
requiring relief be granted to a party responsible for an error or who failed to take whatever
action was reasonably available to prevent or nullify the harmful effect of an error.").
Moreover, even if appellant did not acquiesce to the ruling, Ms. Littlejohn had not been
afforded an opportunity to explain or deny any alleged statement she made about her own
involvement in the victim's murder, having only been asked about a statement she made
regarding appellant's involvement; therefore, any extrinsic evidence of a prior inconsistent
statement was not admissible. See Tenn R. Evid. 613(b). Appellant is without relief as to this
issue.
CONCLUSION
*8 Based on the record, the briefs of the parties, and the applicable law, we affirm appellant's
judgment. However, our review of the record reveals a discrepancy regarding appellant's
sentence. The trial court's minutes state that appellant was sentenced to life without the
possibility of parole while the judgment states that he was sentenced to life. In addition,
during the motion for new trial, the trial court stated that appellant was sentenced to an
“automatic sentence of life imprisonment." We note that the briefs of the parties disagree
about appellant's sentence, with appellant's brief stating that he received a sentence of life
without the possibility of parole. The record is insufficient for this court to determine whether
the judgment form needs to be corrected See Tenn R.Crim. P. 36 (providing for correction
of clerical errors in judgments); State v Robert Eugene Rutherford. No. E2005-00664CCA-R3-CD, 2006 WL 2252728. at *7 (Tenn.Crim.App. Aug.7, 2006). Therefore, we
remand to the trial court for it to consider whether the judgment requires correction of a
clerical error.
A!! Citations
Not Reported in S.W.3d, 2014 WL 2547710

End Of
Document

WestlawNext. ® 2020 Thomson Reuters

O 2020 Thomson Routers. Mo claim to original U.S. Governor on! Works

Thomson Reuters Privacy Policy

[u

. G-; THOMSON SVUTt io

Thomson Reuters fs:hot'providing legal advice

i

